<html>
<title> - DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED 
              AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                        THURSDAY, MARCH 6, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:58 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Judd Gregg (chairman) presiding.
    Present: Senators Gregg, Stevens, Hollings, Leahy, and 
Kohl.

                          DEPARTMENT OF STATE

                        Office of the Secretary

STATEMENT OF HON. COLIN L. POWELL, SECRETARY OF STATE


                opening statement of senator judd gregg


    Senator Gregg. Let me begin by thanking Secretary Powell 
for taking the time to appear before the Subcommittee on 
Commerce, State, Justice of the Appropriations Committee, which 
has the jurisdiction over the State Department appropriations. 
I offered the Secretary the opportunity of taking a pass on 
this hearing, given the situation in which we find ourselves 
right now relative to diplomatic activity. But he was still 
generous enough to be willing to take some time to come up 
here, which I do greatly appreciate. And I know Senator 
Hollings also appreciates his commitment to the process, the 
appropriations process.
    We have said to the Secretary that we will get him out of 
here on a prompt time frame, certainly no later than 11:30, 
hopefully even earlier. So we are going to forego opening 
statements on our part, turn to the Secretary and have his 
opening statement. And we do have a vote at 10:30. So we may 
stagger the questioning here. But then we will go to questions.
    Mr. Secretary.


                 opening statement of secretary powell


    Secretary Powell. Well, thank you very much, Mr. Chairman. 
It is a great pleasure to be back before the committee. I do 
thank you, also, for giving me a hall pass, if I had needed one 
today. It is a busy time for us in the diplomatic community. I 
will be heading up to New York this afternoon to work with my 
colleagues at the United Nations. But I really did want to be 
here because it is also an important part of my job to make 
sure that I present to the Congress our budget request and then 
appear to testify for that budget request, because the quality 
of our diplomacy depends on whether or not we get the support 
we need for the wonderful men and women of the State Department 
and for the facilities and other items that we need to make 
sure we can do our job in the most effective way.
    I do have a prepared statement for the record, which I 
would offer, Mr. Chairman. And I would summarize that very 
briefly.
    Senator Gregg. That will be put in the record.
    Secretary Powell. I am pleased to appear before you to 
testify in support of the President's International Affairs 
Budget for fiscal year 2004. The funding request for 2004 for 
the Department of State, USAID, and other foreign affairs 
agencies is, overall, $28.5 billion. I have given you a great 
deal of detail on this request in my written statement. And I 
hope you will find it useful, as you go through your 
deliberations.
    The President's budget will allow the United States to 
target security and economic assistance to sustain key 
countries supporting us in the war on terrorism and helping us 
to stem the proliferation of weapons of mass destruction. The 
budget will help us launch the Millennium Challenge Account, a 
new partnership generating support that will go to countries 
that rule justly, invest in their people, and encourage 
economic freedom.
    It will also strengthen the United States and global 
commitment to fighting HIV/AIDS and alleviating human 
hardships. It will allow us to combat illegal drugs in the 
Andean Region of South America, as well as bolster democracy in 
one of that region's most important countries, Colombia.
    Finally, it will reinforce America's world-class diplomatic 
force, focusing on the people, places, and tools needed to 
promote our foreign policies around the world.
    I am particularly proud of that last goal, Mr. Chairman, 
because, as you know, for the past 2 years I have concentrated 
on each aspect of my responsibilities, as foreign policy 
advisor to the President and Chairman and CEO of the Department 
of State. What you need in a large organization is to have the 
very best people come in and, once they are in, to take care of 
them.
    So we are asking for your full support of our Diplomatic 
Readiness Initiative. For 2 years, we have been hiring for the 
first time in years. We will hire, with this budget request, 
399 more professionals to help the President carry out the 
Nation's foreign policy. This hiring will bring us to the 
1,100-plus new Foreign and Civil Service officers we set out to 
hire when I first came into the job 2-plus years ago.
    I thank this committee and I thank the Congress for the 
support that it has provided, not only for our Diplomatic 
Readiness Initiative, but also for our overall operating 
accounts over the last several years.
    Second, I promised to bring state-of-the-art communications 
capability to the Department, because people who cannot 
communicate rapidly and effectively in today's globalizing 
world cannot carry out our foreign policy. We are doing very 
well in that regard in both unclassified and classified 
communications capability, including desktop access to the 
Internet for every man and woman in the Department. We are 
moving rapidly. We are almost there. The $157 million budget 
request before you will put us there.
    Finally, with respect to my CEO role, I wanted to sweep the 
slate clean and completely revamp the way we construct our 
Embassies and other overseas buildings, as well as improve on 
the manner in which we secure our men and women who occupy 
those facilities. That last task is a long-term, almost never-
ending one, particularly in this time of heightened terrorist 
activities. But we are well on the way to implementing both the 
construction and security tasks in a better way, in a less 
expensive way, and in a way that subsequent CEOs of the 
Department can continue and improve upon.
    I am very happy at the work we have done in Embassy 
construction and security over the past few years under the 
leadership of General Williams, who you all have come to know. 
I need your continued support for the $1.5 billion for Embassy 
security and construction and the $646 million in D&CP funding 
for worldwide security upgrades.
    Mr. Chairman, as the principal foreign policy advisor to 
the President, I have budget priorities on that side of my 
portfolio, as well. So let me highlight a few of our key 
foreign policy priorities before I stop and take your 
questions.
    I might note that one of the successes of our foreign 
policy was the Moscow Treaty, which reduced significantly the 
number of strategic offensive weapons held by the United States 
and the Russian Federation. That treaty is now on the Senate 
floor. I hope that it will be acted on promptly. I encourage 
your support for this treaty. With a little bit of luck and 
with my fingers crossed, it might even be voted on today, when 
remaining amendments, proposed amendments, have been dealt 
with.
    The fiscal year 2004 budget proposes several initiatives to 
advance U.S. national security interests and preserve American 
leadership. The fiscal year 2004 Foreign Operations budget that 
funds programs for the Department of State, USAID, and other 
foreign agencies is $18.8 billion. Today, our number one 
priority is to fight and win the global war on terrorism. The 
budget furthers this goal by providing economic, military, and 
democracy assistance to key foreign partners and allies, 
including $4.7 billion to those countries that have joined us 
in the war on terrorism.
    Of this amount, the President's budget provides $657 
million for Afghanistan, $460 million for Jordan, $395 million 
for Pakistan, $255 million for Turkey, $136 million for 
Indonesia, and $87 million for the Philippines. In Afghanistan, 
the funding will be used to fulfill our commitment to rebuild 
Afghanistan's road network. In addition, it will help establish 
security in the country through the creation of a national 
military, as well as a national police force. Our assistance 
will establish broad-based and accountable governance 
throughout democratic institutions in Afghanistan by fostering 
an active civil society.
    I am very pleased at what we have been able to do in 
Afghanistan over the last 1\1/2\ years. Some ask whether the 
glass is half empty or half full. Well, there is still a long 
way to go in Afghanistan. But, we should be very proud of what 
we have been able to accomplish. President Karzai was here 
earlier this week, and we had good discussions with him.
    When you consider we came from nothing, from zero, from 
nothing, from a ruined country to a country that now has a 
representative form of government--they have spoken out for the 
leader that they want to have as their president. They are 
getting ready for an election next year. A constitution is well 
underway. Roads are under construction. Two million refugees 
have returned. Two million people that have been living in 
other lands, in Iran, in Pakistan, have voted with their feet 
for this new country and for the leadership that it is under. 
They are also counting on our full support to rebuild that 
country. I think we should be very proud of what we have done.
    I also want to emphasize our efforts to decrease threats 
posed by terrorist groups, rogue states, and other nonstate 
actors with regards to weapons of mass destruction and related 
technology. To achieve this goal, we must strengthen 
partnerships with countries that share our views in dealing 
with the threat of terrorism and in resolving regional 
conflicts. The fiscal year 2004 budget requests support for the 
Nonproliferation and Disarmament Fund. The budget also 
increases funding for overseas Export Controls and Border 
Security and supports additional funding for Science Centers 
and Bio-Chem Redirection Programs.
    Funding increases requested for these programs will help us 
prevent weapons of mass destruction from falling into the hands 
of terrorist groups or states by preventing their movement 
across borders and destroying or safeguarding known quantities 
of weapons or source material.
    The fiscal year 2004 budget also promotes international 
peace and prosperity by launching the most innovative approach 
to foreign assistance in more than 40 years. The new Millennium 
Challenge Account, an independent Government corporation funded 
at $1.3 billion, will redefine development aid. As President 
Bush told African leaders meeting in Mauritius earlier this 
year, this aid will go to those nations that encourage economic 
freedom, root out corruption, put in place the rule of law, 
respect the rights of their people, and have made a firm 
commitment to democracy.
    Moreover, the President's budget request offers hope and a 
helping hand to countries facing health catastrophes, poverty 
and despair, and humanitarian disasters. The budget includes 
more than $1 billion to meet the needs of refugees and 
internally displaced peoples.
    The fiscal year 2004 budget also provides more than $1.3 
billion to combat the global HIV/AIDS epidemic, the worst 
crisis facing this world. The President's total budget for HIV/
AIDS is over $2 billion, which includes the first year's 
funding for the new emergency plan for HIV/AIDS relief 
announced by the President in his State of the Union address. 
This funding will target 14 of the hardest hit countries, 
especially in Africa and the Caribbean.
    The budget also includes almost $500 million for Colombia. 
This funding will support Colombian President Uribe's unified 
campaign against terrorists and the drug trade that fuels their 
activities. The aim is to secure democracy, extend security, 
and restore economic prosperity to Colombia, and prevent the 
narco-terrorists from spreading instability to the broader 
Andean Region.
    Accomplishing these goals requires more than simply funding 
for Colombia. Therefore, our total Andean Counterdrug 
Initiative is $731 million. Critical components of this effort 
include resumption of the Airbridge Denial Program to stop 
internal and cross-border aerial trafficking in illicit drugs, 
stepped up eradication and alternative development efforts, and 
technical assistance to strengthen Colombia's police and 
judicial institutions.
    Mr. Chairman, members of the committee, to advance 
America's interests around the world, we need the dollars in 
the President's budget for fiscal year 2004. We need the 
dollars under both of my hats, as principal foreign policy 
advisor to the President, as well as CEO of the Department of 
State.

                           prepared statement

    With that, Mr. Chairman, I will stop and be as responsive 
as I can to your questions.
    [The statement follows:]
                 Prepared Statement of Colin L. Powell
    Mr. Chairman, members of the subcommittee, I am pleased to appear 
before you to testify in support of the President's International 
Affairs Budget for fiscal year 2004. Funding requested for fiscal year 
2004 for the Department of State, USAID, and other foreign affairs 
agencies is $28.5 billion.
    The President's Budget will allow the United States to:
  --Target security and economic assistance to sustain key countries 
        supporting us in the war on terrorism and helping us to stem 
        the proliferation of weapons of mass destruction;
  --Launch the Millennium Challenge Account--a new partnership 
        generating support to countries that rule justly, invest in 
        their people, and encourage economic freedom;
  --Strengthen the U.S. and global commitment to fighting HIV/AIDS and 
        alleviating humanitarian hardships;
  --Combat illegal drugs in the Andean Region of South America, as well 
        as bolster democracy in one of that region's most important 
        countries, Colombia; and
  --Reinforce America's world-class diplomatic force, focusing on the 
        people, places, and tools needed to promote our foreign 
        policies around the world.
    I am particularly proud of the last bullet, Mr. Chairman, because 
for the past two years I have concentrated on each of my jobs--primary 
foreign policy advisor to the President and Chief Executive Officer of 
the State Department.
    Under my CEO hat, we have been reinforcing our diplomatic force for 
two years and we will continue in fiscal year 2004. We will hire 399 
more professionals to help the President carry out the nation's foreign 
policy. This hiring will bring us to the 1,100-plus new foreign and 
civil service officers we set out to hire over the first three years to 
bring the Department's personnel back in line with its diplomatic 
workload. Moreover, completion of these hires will allow us the 
flexibility to train and educate all of our officers as they should be 
trained and educated. So I am proud of that accomplishment and want to 
thank you for helping me bring it about.
    In addition, I promised to bring state-of-the-art communications 
capability to the Department--because people who can't communicate 
rapidly and effectively in today's globalizing world can't carry out 
our foreign policy. We are approaching our goal in that regard as well.
    In both unclassified and classified communications capability, 
including desk-top access to the Internet for every man and woman at 
State, we are there by the end of 2003. The budget before you will 
sustain these gains and continue our information technology 
modernization effort. Finally, with respect to my CEO role, I wanted to 
sweep the slate clean and completely revamp the way we construct our 
embassies and other overseas buildings, as well as improve the way we 
secure our men and women who occupy them. As you well know, that last 
task is a long-term, almost never-ending one, particularly in this time 
of heightened terrorist activities. But we are well on the way to 
implementing both the construction and the security tasks in a better 
way, in a less expensive way, and in a way that subsequent CEOs can 
continue and improve on.
    Mr. Chairman, since this subcommittee's oversight responsibilities 
are primarily concerned with my CEO hat, let me give you key details 
with respect to these three main priorities, as well as tell you about 
other initiatives under my CEO hat:
    the ceo responsibilities: state department and related agencies
    The President's fiscal year 2004 discretionary request for the 
Department of State and Related Agencies is $8.497 billion. The 
requested funding will allow us to:
  --Continue initiatives to recruit, hire, train, and deploy the right 
        work force. The budget request includes $97 million to complete 
        the Diplomatic Readiness Initiative by hiring 399 additional 
        foreign affairs professionals. Foreign policy is carried out 
        through our people, and rebuilding America's diplomatic 
        readiness in staffing will ensure that the Department can 
        respond to crises and emerging foreign policy priorities. This 
        is the third year of funding for this initiative, which will 
        provide a total of 1,158 new staff for the Department of State.
  --Continue to put information technology in the service of diplomacy. 
        The budget request includes $157 million to sustain the 
        investments made over the last two years to provide classified 
        connectivity to every post that requires it and to expand 
        desktop access to the Internet for State Department employees. 
        Combined with $114 million in estimated Expedited Passport 
        Fees, a total of $271 million will be available for information 
        technology investments, including beginning a major 
        initiative--SMART--that will overhaul the outdated systems for 
        cables, messaging, information sharing, and document archiving.
  --Continue to upgrade and enhance our security worldwide. The budget 
        request includes $646.7 million for programs to enhance the 
        security of our diplomatic facilities and personnel serving 
        abroad and for hiring 85 additional security and support 
        professionals to sustain the Department's Worldwide Security 
        Upgrades program.
  --Continue to upgrade the security of our overseas facilities. The 
        budget request includes $1.514 billion to fund major security-
        related construction projects and address the major physical 
        security and rehabilitation needs of embassies and consulates 
        around the world. The request includes $761.4 million for 
        construction of secure embassy compounds in seven countries and 
        $128.3 million for construction of a new embassy building in 
        Berlin.
  --The budget also supports management improvements to the overseas 
        buildings program and the Overseas Building Operations (OBO) 
        long-range plan. The budget proposes a Capital Security Cost 
        Sharing Program that allocates the capital costs of new 
        overseas facilities to all U.S. Government agencies on the 
        basis of the number of their authorized overseas positions. 
        This program will serve two vital purposes: (1) to accelerate 
        construction of new embassy compounds and (2) to encourage 
        Federal agencies to evaluate their overseas positions more 
        carefully. In doing so, it will further the President's 
        Management Agenda initiative to rightsize the official American 
        presence abroad. The modest surcharge to the cost of stationing 
        an American employee overseas will not undermine vital overseas 
        work, but it will encourage more efficient management of 
        personnel and taxpayer funds.
  --Continue to enhance the Border Security Program. The budget request 
        includes $736 million in Machine Readable Visa (MRV) fee 
        revenues for continuous improvements in consular systems, 
        processes, and programs in order to protect U.S. borders 
        against the illegal entry of individuals who would do us harm.
  --Meet our obligations to international organizations. Fulfilling 
        U.S. commitments is vital to building coalitions and gaining 
        support for U.S. interests and policies in the war against 
        terrorism and the spread of weapons of mass destruction. The 
        budget request includes $1 billion to fund U.S. assessments to 
        44 international organizations, including $71.4 million to 
        support renewed U.S. membership in the United Nations 
        Educational, Scientific, and Cultural Organization (UNESCO).
  --Support obligations to international peacekeeping activities. The 
        budget request includes $550.2 million to pay projected U.N. 
        peacekeeping assessments. These peacekeeping activities ensure 
        continued American leadership in shaping the international 
        community's response to developments that threaten 
        international peace and stability.
    Continue to eliminate support for terrorists and thus deny them 
safe haven through our ongoing public diplomacy activities, our 
educational and cultural exchange programs, and international 
broadcasting. The budget request includes $296.9 million for public 
diplomacy, including information and cultural programs carried out by 
overseas missions and supported by public diplomacy personnel in our 
regional and functional bureaus. These resources are used to engage, 
inform, and influence foreign publics and broaden dialogue between 
American citizens and institutions and their counterparts abroad.
    The budget request also includes $345.3 million for educational and 
cultural exchange programs that build mutual understanding and develop 
friendly relations between America and the peoples of the world. These 
activities establish the trust, confidence, and international 
cooperation with other countries that sustain and advance the full 
range of American national interests.
    The budget request includes $100 million for education and cultural 
exchanges for States of the Former Soviet Union and Central and Eastern 
Europe, which were previously funded under the FREEDOM Support Act and 
Support for East European Democracy (SEED) accounts.
    As a member of the Broadcasting Board of Governors, I want to take 
this opportunity to highlight to you the BBG's pending budget request 
for $563.5 million. Funding will advance international broadcasting 
efforts to support the war on terrorism, including initiation of the 
Middle East Television Network.
    Mr. Chairman, I know that your committee staff will go over this 
statement with a fine-tooth comb and I know too that they prefer an 
account-by-account laydown. So here it is:
Diplomatic and Consular Programs (D&CP)
    The fiscal year 2004 request for D&CP, the State Department's chief 
operating account, totals $4.164 billion.
    D&CP supports the diplomatic activities and programs that 
constitute the first line of offense against threats to the security 
and prosperity of the American people. Together with Machine Readable 
Visa and other fees, the account funds the operating expenses and 
infrastructure necessary for carrying out U.S. foreign policy in more 
than 260 locations around the world.
    The fiscal year 2004 D&CP request provides $3.517 billion for 
ongoing operations--a net increase of $269 million over the fiscal year 
2003 level. Increased funding will enable the State Department to 
advance national interests effectively through improved diplomatic 
readiness, particularly in human resources.
    The request completes the Department's three-year Diplomatic 
Readiness Initiative to put the right people with the right skills in 
the right place at the right time. New D&CP funding in fiscal year 2004 
of $97 million will allow the addition of 399 professionals, providing 
a total of 1,158 new staff from fiscal year 2002 through fiscal year 
2004.
    The fiscal year 2004 D&CP request also provides $646.7 million for 
Worldwide Security Upgrades--an increase of $97.3 million over last 
year. This total includes $504.6 million to continue worldwide security 
programs for guard protection, physical security equipment and 
technical support, information and system security, and security 
personnel and training. It also includes $43.4 million to expand the 
perimeter security enhancement program for 232 posts and $98.7 million 
for improvements in domestic and overseas protection programs, 
including 85 additional agents and other security professionals.
Capital Investment Fund (CIF)
    The fiscal year 2004 request provides $157 million for the CIF to 
assure that the investments made in fiscal year 2002 and fiscal year 
2003 keep pace with increased demand from users for functionality and 
speed.
    Requested funding includes $15 million for the State Messaging and 
Archive Retrieval Toolset (SMART). The SMART initiative will replace 
outdated systems for cables and messages with a unified system that 
adds information sharing and document archiving.
Embassy Security, Construction, and Maintenance (ESCM)
    The fiscal year 2004 request for ESCM is $1.514 billion. This 
total--an increase of $259.1 million over the fiscal year 2003 level--
reflects the Administration's continuing commitment to protect U.S. 
Government personnel serving abroad, improve the security posture of 
facilities overseas, and address serious deficiencies in the State 
Department's overseas infrastructure.
    For the ongoing ESCM budget, the Administration is requesting 
$524.7 million. This budget includes maintenance and repairs at 
overseas posts, facility rehabilitation projects, construction 
security, renovation of the Harry S Truman Building, all activities 
associated with leasing overseas properties, and management of the 
overseas buildings program.
    For Worldwide Security Construction, the Administration is 
requesting $761.4 million for the next tranche of security-driven 
construction projects to replace high-risk facilities. Funding will 
support the construction of secure embassies in seven countries--
Algeria, Burma, Ghana, Indonesia, Panama, Serbia, and Togo. In 
addition, the requested funding will provide new on-compound buildings 
for USAID in Ghana, Jamaica, and Nigeria.
    The ESCM request includes $100 million to strengthen compound 
security at vulnerable posts.
    The request also includes $128.3 million to construct the new U.S. 
embassy building in Berlin.
Educational and Cultural Exchange Programs (ECE)
    The fiscal year 2004 request of $345.3 million for ECE maintains 
funding for exchanges at the fiscal year 2003 level of $244 million and 
adds $100 million for projects for Eastern Europe and the States of the 
Former Soviet Union previously funded from Foreign Operations 
appropriations.
    Authorized by the Mutual Educational and Cultural Exchange Act of 
1961 (Fulbright-Hays Act), as amended, exchanges are strategic 
activities that build mutual understanding and develop friendly 
relations between the United States and other countries. They establish 
the trust, confidence, and international cooperation necessary to 
sustain and advance the full range of U.S. national interests.
    The request provides $141 million for Academic Programs. These 
include the J. William Fulbright Educational Exchange Program for 
exchange of students, scholars, and teachers and the Hubert H. Humphrey 
Fellowship Program for academic study and internships in the United 
States for mid-career professionals from developing countries.
    The request also provides $73 million for Professional and Cultural 
Exchanges. These include the International Visitor Program, which 
supports travel to the United States by current and emerging leaders to 
obtain firsthand knowledge of American politics and values, and the 
Citizen Exchange Program, which partners with U.S. non-profit 
organizations to support professional, cultural, and grassroots 
community exchanges.
    This request provides $100 million for exchanges funded in the past 
from the FREEDOM Support Act (FSA) and Support for East European 
Democracy (SEED) accounts.
    This request also provides $31 million for exchanges support. This 
is a straight-line projection of the fiscal year 2003 level.
Contributions to International Organizations (CIO)
    The fiscal year 2004 request for CIO of $1.010 billion provides 
funding for U.S. assessed contributions, consistent with U.S. statutory 
restrictions, to 44 international organizations to further U.S. 
economic, political, social, and cultural interests.
    The request recognizes U.S. international obligations and reflects 
the President's commitment to maintain the financial stability of the 
United Nations and other international organizations that include the 
World Health Organization, the North Atlantic Treaty Organization, the 
International Atomic Energy Agency, and the Organization for Economic 
Cooperation and Development.
    The budget request provides $71.4 million to support renewed U.S. 
membership in the United Nations Educational, Scientific, and Cultural 
Organization (UNESCO). UNESCO contributes to peace and security in the 
world by promoting collaboration among nations through education, 
science, culture and communication and by furthering intercultural 
understanding and universal respect for justice, rule of law, human 
rights, and fundamental freedoms, notably a free press.
    Membership in international organizations benefits the United 
States by building coalitions and pursuing multilateral programs that 
advance U.S. interests. These include promoting economic growth through 
market economies; settling disputes peacefully; encouraging non-
proliferation, nuclear safeguards, arms control, and disarmament; 
adopting international standards to facilitate international trade, 
telecommunications, transportation, environmental protection, and 
scientific exchange; and strengthening international cooperation in 
agriculture and health.
Contributions for International Peacekeeping Activities (CIPA)
    The administration is requesting $550.2 million for CIPA in fiscal 
year 2004. This funding level will allow the United States to pay its 
share of assessed U.N. peacekeeping budgets, fulfilling U.S. 
commitments and avoiding increased U.N. arrears.
    The U.N. peacekeeping appropriation serves U.S. interests in 
Europe, Africa and the Middle East, where U.N. peacekeeping missions 
assist in ending conflicts, restoring peace and strengthening regional 
stability.
    U.N. peacekeeping missions leverage U.S. political, military and 
financial assets through the authority of the U.N. Security Council and 
the participation of other states that provide funds and peacekeepers 
for conflicts around the world.
Broadcasting Board of Governors (BBG)
    The fiscal year 2004 budget request for the BBG totals $563.5 
million.
    The overall request provides $525.2 million for U.S. Government 
non-military international broadcasting operations through the 
International Broadcasting Operations (IBO) account. This account funds 
operations of the Voice of America (VOA), Radio Free Europe/Radio 
Liberty (RFE/RL), Radio Free Asia (RFA), and all related program 
delivery and support activities.
    The IBO request includes funding to advance broadcasting efforts 
related to the war on terrorism. The request includes $30 million to 
initiate the Middle East Television Network--a new Arabic-language 
satellite TV network that, once operational, will have the potential to 
reach vast audiences in the Middle East. The request also includes 
funding to double VOA Indonesian radio programming, significantly 
increase television programming in Indonesia, and expand BBG audience 
development efforts.
    The IBO request reflects the shifting of priorities away from the 
predominantly Cold War focus on Central and Eastern Europe to 
broadcasting in the Middle East and Central Asia. Funds are being 
redirected to programs in these regions through the elimination of 
broadcasting to countries in the former Eastern Bloc that have 
demonstrated significant advances in democracy and press freedoms and 
are new or soon-to-be NATO and European Union Members.
    The IBO request also reflects anticipated efficiencies that achieve 
a five-percent reduction in funding for administration and management 
in fiscal year 2004.
    The fiscal year 2004 request also provides $26.9 million through 
Broadcasting to Cuba (OCB) for continuing Radio Marti and TV Marti 
operations, including salary and inflation increases, to support 
current schedules.
    The fiscal year 2004 request further provides $11.4 million for 
Broadcasting Capital Improvements to maintain the BBG's worldwide 
transmission network. The request includes $2.9 million to maintain and 
improve security of U.S. broadcasting transmission facilities overseas.

    That finishes the State and Related Agencies part of the 
President's Budget. But before I stop and take your questions, let me 
give you an overview of the rest of our budget for fiscal year 2004, 
the Foreign Affairs part. You are all members of the larger 
Appropriations Committee and, in that capacity, I hope that you will 
strongly support this part of our budget also.
 foreign policy advisor responsibilities: funding america's diplomacy 
                            around the world
    The fiscal year 2004 budget proposes several initiatives to advance 
U.S. national security interests and preserve American leadership. The 
fiscal year 2004 Foreign Operations budget that funds programs for the 
Department of State, USAID and other foreign affairs agencies is $18.8 
billion. Today, our number one priority is to fight and win the global 
war on terrorism. The budget furthers this goal by providing economic, 
military, and democracy assistance to key foreign partners and allies, 
including $4.7 billion to countries that have joined us in the war on 
terrorism.
    The budget also promotes international peace and prosperity by 
launching the most innovative approach to U.S. foreign assistance in 
more than forty years. The new Millennium Challenge Account (MCA), an 
independent government corporation funded at $1.3 billion will redefine 
``aid''. As President Bush told African leaders meeting in Mauritius 
recently, this aid will go to ``nations that encourage economic 
freedom, root out corruption, and respect the rights of their people.''
    Moreover, this budget offers hope and a helping hand to countries 
facing health catastrophes, poverty and despair, and humanitarian 
disasters. It provides $1.345 billion to combat the global HIV/AIDS 
epidemic, more than $1 billion to meet the needs of refugees and 
internally displaced peoples, $200 million in emergency food assistance 
to support dire famine needs, and $100 million for an emerging crises 
fund to allow swift responses to complex foreign crises. Mr. Chairman, 
let me give you some details.
    The United States is successfully prosecuting the global war on 
terrorism on a number of fronts. We are providing extensive assistance 
to states on the front lines of the anti-terror struggle. Working with 
our international partners bilaterally and through multilateral 
organizations, we have frozen more than $110 million in terrorist 
assets, launched new initiatives to secure global networks of commerce 
and communication, and significantly increased the cooperation of our 
law enforcement and intelligence communities. Afghanistan is no longer 
a haven for al-Qaeda. We are now working with the Afghan Authority, 
other governments, international organizations, and NGOs to rebuild 
Afghanistan. Around the world we are combating the unholy alliance of 
drug traffickers and terrorists who threaten the internal stability of 
countries. We are leading the international effort to prevent weapons 
of mass destruction from falling into the hands of those who would do 
harm to us and others. At the same time, we are rejuvenating and 
expanding our public diplomacy efforts worldwide.
Assistance to Frontline States
    The fiscal year 2004 International Affairs budget provides 
approximately $4.7 billion in assistance to the Frontline States, which 
have joined with us in the war on terrorism. This funding will provide 
crucial assistance to enable these countries to strengthen their 
economies, internal counter-terrorism capabilities and border controls.
    Of this amount, the President's Budget provides $657 million for 
Afghanistan, $460 million for Jordan, $395 million for Pakistan, $255 
million for Turkey, $136 million for Indonesia, and $87 million for the 
Philippines. In Afghanistan, the funding will be used to fulfill our 
commitment to rebuild Afghanistan's road network; establish security 
through a national military and national police force, including 
counter-terrorism and counter-narcotics components; establish broad-
based and accountable governance through democratic institutions and an 
active civil society; ensure a peace dividend for the Afghan people 
through economic reconstruction; and provide humanitarian assistance to 
sustain returning refugees and displaced persons. United States 
assistance will continue to be coordinated with the Afghan government, 
the United Nations, and other international donors.
    The State Department's Anti-Terrorism Assistance (ATA) program will 
continue to provide frontline states a full complement of training 
courses, such as a course on how to conduct a post-terrorist attack 
investigation or how to respond to a WMD event. The budget will also 
fund additional equipment grants to sustain the skills and capabilities 
acquired in the ATA courses. It will support as well in-country 
training programs in Afghanistan, Pakistan, and Indonesia.
Central Asia and Freedom Support Act Nations
    In fiscal year 2004, over $157 million in Freedom Support Act (FSA) 
funding will go to assistance programs in the Central Asian states. The 
fiscal year 2004 budget continues to focus FSA funds to programs in 
Uzbekistan, Kyrgyzstan and Tajikistan, recognizing that Central Asia is 
of strategic importance to U.S. foreign policy objectives. The fiscal 
year 2004 assistance level for Uzbekistan, Kyrgyzstan and Tajikistan is 
30 percent above 2003. Assistance to these countries has almost doubled 
from pre-September 11th levels. These funds will support civil society 
development, small business promotion, conflict reduction, and economic 
reform in the region. These efforts are designed to promote economic 
development and strengthen the rule of law in order to reduce the 
appeal of extremist movements and stem the flow of illegal drugs that 
finance terrorist activities.
    Funding levels and country distributions for the FSA nations 
reflect shifting priorities in the region. For example, after more than 
10 years of high levels of assistance, it is time to begin the process 
of graduating countries in this region from economic assistance, as we 
have done with countries in Eastern Europe that have made sufficient 
progress in the transition to market-based democracies. U.S. economic 
assistance to Russia and Ukraine will begin phasing down in fiscal year 
2004, a decrease of 32 percent from 2003, moving these countries 
towards graduation.
Combating Illegal Drugs and Stemming Narco-terrorism
    The President's request for $731 million for the Andean Counterdrug 
Initiative includes $463 million for Colombia. An additional $110 
million in military assistance to Colombia will support Colombian 
President Uribe's unified campaign against terrorists and the drug 
trade that fuels their activities. The aim is to secure democracy, 
extend security, and restore economic prosperity to Colombia and 
prevent the narco-terrorists from spreading instability to the broader 
Andean region. Critical components of this effort include resumption of 
the Airbridge Denial program to stop internal and cross-border aerial 
trafficking in illicit drugs, stepped up eradication and alternative 
development efforts, and technical assistance to strengthen Colombia's 
police and judicial institutions.
Halting Access of Rogue States and Terrorists to Weapons of Mass 
        Destruction
    Decreasing the threats posed by terrorist groups, rogue states, and 
other non-state actors requires halting the spread of weapons of mass 
destruction (WMD) and related technology. To achieve this goal, we must 
strengthen partnerships with countries that share our views in dealing 
with the threat of terrorism and resolving regional conflicts.
    The fiscal year 2004 budget requests $35 million for the 
Nonproliferation and Disarmament Fund (NDF), more than double the 
fiscal year 2003 request, increases funding for overseas Export 
Controls and Border Security (EXBS) to $40 million, and supports 
additional funding for Science Centers and Bio-Chem Redirection 
Programs.
    Funding increases requested for the NDF and EXBS programs seek to 
prevent weapons of mass destruction from falling into the hands of 
terrorist groups or states by preventing their movement across borders 
and destroying or safeguarding known quantities of weapons or source 
material. The Science Centers and Bio-Chem Redirection programs support 
the same goals by engaging former Soviet weapons scientists and 
engineers in peaceful scientific activities, providing them an 
alternative to marketing their skills to states or groups of concern.
Millennium Challenge Account
    The fiscal year 2004 Budget request of $1.3 billion for the new 
Millennium Challenge Account (MCA) as a government corporation fulfills 
the President's March 2002 pledge to create a new bilateral assistance 
program, markedly different from existing models. This budget is a huge 
step towards the President's commitment of $5 billion in annual funding 
for the MCA by 2006, a 50 percent increase in core development 
assistance.
    The MCA supplement U.S. commitments to humanitarian assistance and 
existing development aid programs funded and implemented by USAID. It 
will assist developing countries that make sound policy decisions and 
demonstrate solid performance on economic growth and reducing poverty.
  --MCA funds will go only to selected developing countries that 
        demonstrate a commitment to sound policies--based on clear, 
        concrete and objective criteria. To become eligible for MCA 
        resources, countries must demonstrate their commitment to 
        economic opportunity, investing in people, and good governance.
  --Resources will be available through agreements with recipient 
        countries that specify a limited number of clear measurable 
        goals, activities, and benchmarks, and financial accountability 
        standards.
    The MCA will be administered by a new government corporation 
designed to support innovative strategies and to ensure accountability 
for measurable results. The corporation will be supervised by a Board 
of Directors composed of Cabinet level officials and chaired by the 
Secretary of State. Personnel will be drawn from a variety of 
government agencies and non-government institutions and serve limited-
term appointments.
    In fiscal year 2004, countries eligible to borrow from the 
International Development Association (IDA), and which have per capita 
incomes below $1,435, (the historical IDA cutoff) will be considered. 
In 2005, all countries with incomes below $1,435 will be considered. In 
2006, all countries with incomes up to $2,975 (the current World Bank 
cutoff for lower middle income countries) will be eligible.
    The selection process will use 16 indicators to assess national 
performance--these indicators being relative to governing justly, 
investing in people, and encouraging economic freedom. These indicators 
were chosen because of the quality and objectivity of their data, 
country coverage, public availability, and correlation with growth and 
poverty reduction. The results of a review of the indicators will be 
used by the MCA Board of Directors to make a final recommendation to 
the President on a list of MCA countries.
The U.S.-Middle East Partnership Initiative
    The President's Budget includes $145 million for the Middle East 
Partnership Initiative (MEPI). This initiative gives us a framework and 
funding for working with the Arab world to expand educational and 
economic opportunities, empower women, and strengthen civil society and 
the rule of law. The peoples and governments of the Middle East face 
daunting human challenges. Their economies are stagnant and unable to 
provide jobs for millions of young people entering the workplace each 
year. Too many of their governments appear closed and unresponsive to 
the needs of their citizens. And their schools are not equipping 
students to succeed in today's globalizing world. With the programs of 
the MEPI, we will work with Arab governments, groups, and individuals 
to bridge the jobs gap with economic reform, business investment, and 
private sector development; close the freedom gap with projects to 
strengthen civil society, expand political participation, and lift the 
voices of women; and bridge the knowledge gap with better schools and 
more opportunities for higher education. The U.S.-Middle East 
Partnership Initiative is an investment in a more stable, peaceful, 
prosperous, and democratic Arab world.
Fighting the Global AIDS Pandemic
    The fiscal year 2004 budget continues the Administration's 
commitment to combat HIV/AIDS and to help bring care and treatment to 
infected people overseas. The HIV/AIDS pandemic has killed 23 million 
of the 63 million people it has infected to date, and left 14 million 
orphans worldwide. President Bush has made fighting this pandemic a 
priority of U.S. foreign policy.
    The President believes the global community can--and must--do more 
to halt the advance of the pandemic, and that the United States should 
lead by example. Thus, the President's fiscal year 2004 budget request 
signals a further, massive increase in resources to combat the HIV/AIDs 
pandemic. As described in the State of the Union, the President is 
committing to provide a total of $15 billion over the next five years 
to turn the tide in the war on HIV/AIDs, beginning with $2.0 billion in 
the fiscal year 2004 budget request and rising thereafter. These funds 
will be targeted on the hardest hit countries, especially Africa and 
the Caribbean with the objective of achieving dramatic on-the-ground 
results. This new dramatic commitment is reflected in the 
Administration's $2.0 billion fiscal year 2004 budget request, which 
includes:
  --State Department--$450 million;
  --USAID--$895 million, including $100 million for the Global Fund and 
        $150 million for the International Mother & Child HIV 
        Prevention; and
  --HHS/CDC/NIH--$690 million, including $100 million for the Global 
        Fund and $150 million for the International Mother & Child HIV 
        Prevention.
    In order to ensure accountability for results, the President has 
asked me to establish at State a new Special Coordinator for 
International HIV/AIDS Assistance. The Special Coordinator will work 
for me and be responsible for coordinating all international HIV/AIDS 
programs and efforts of the agencies that implement them.
Hunger, Famine, and Other Emergencies
    Food Aid.--Historically the United States has been the largest 
donor of assistance for victims of protracted and emergency food 
crises. In 2003, discretionary funding for food aid increased from $864 
million to $1.19 billion. That level will be enhanced significantly in 
2004 with two new initiatives: a Famine Fund and an emerging crises 
fund to address complex emergencies.
  --Famine Fund.--The fiscal year 2004 budget includes a new $200 
        million fund with flexible authorities to provide emergency 
        food, grants or support to meet dire needs on a case-by-case 
        basis. This commitment reflects more than a 15 percent increase 
        in U.S. food assistance.
  --Emerging Crises Fund.--The budget also requests $100 million for a 
        new account that will allow the Administration to respond 
        swiftly and effectively to prevent or resolve unforeseen 
        complex foreign crises. This account will provide a mechanism 
        for the President to support actions to advance American 
        interests, including to prevent or respond to foreign 
        territorial disputes, armed ethnic and civil conflicts that 
        pose threats to regional and international peace and acts of 
        ethnic cleansing, mass killing and genocide.
                                summary
    Mr. Chairman, members of the committee, to advance America's 
interests around the world we need the dollars in the President's 
Budget for fiscal year 2004. We need the dollars under both of my 
hats--CEO and principal foreign policy advisor. The times we live in 
are troubled to be sure, but I believe there is every bit as much 
opportunity in the days ahead as there is danger. American leadership 
is essential to dealing with both the danger and the opportunity. With 
regard to the Department of State, the President's fiscal year 2004 
budget is crucial to the exercise of that leadership.
    Thank you and I will be pleased to answer your questions.

                        REMARKS OF SENATOR GREGG

    Senator Gregg. Thank you, Mr. Secretary, for that 
statement.
    Let me begin by saying that we have enjoyed working with 
you and your Department. I know that Senator Hollings, who I 
succeeded as chair here, has aggressively pursued many of the 
initiatives which you have outlined in his original remarks. 
And I intend to continue Senator Hollings' processes there, 
initiatives in the area, for example, of gearing up the 
Diplomatic Corps. We will certainly be funding that.
    One of my other concerns is the Consular Affairs area. We 
have to not only gear up and give the Consular Affairs folks 
status, but we also have to give them decent working places, so 
that when people come into our Embassies, they feel comfortable 
and not as though they are being treated as second class 
individuals. They should have a nice atmosphere. And I think 
that this will help the visa process, also.
    And I also am concerned about protecting our people 
overseas, not only the Foreign Service Officers and Consular 
Affairs folks, but their families, especially at places where 
they naturally congregate, such as American schools. As you 
know, we put $15 million into the budget to address that. And 
we are looking for other ideas that the Department may have in 
that area specifically.
    I want to congratulate General Williams for his efforts. I 
believe that after a number of years of out-of-control costs, 
driven in large part by a need to respond to very serious 
security issues at our Embassies, the issue is being 
aggressively and effectively addressed by General Williams.
    I would say this, however: I am concerned that we are 
building fortresses that have no architectural identity with 
the communities that they are in. And I hope that in obtaining 
security that we will not leave behind the importance of having 
American presence that does not look like a fortress, that our 
buildings start to take on some architectural identity with the 
countries that they are in. I think I would like to get into 
that issue, but not at this time.
    What I would like to address now is a couple more larger 
issues which are current to the period. Let me read you a 
couple quotes from Osama bin Laden. In a Time magazine article 
on the issue of weapons of mass destruction, Osama bin Laden 
stated, ``Acquiring weapons for the defense of Muslims is a 
religious duty. If I have indeed acquired these weapons, then I 
thank God for enabling me to do so. And if I seek to acquire 
these weapons, I am carrying out a duty. It would be a sin for 
Muslims not to try to possess weapons that would prevent 
infidels from inflicting harm on Muslims.''
    He went on to say in another quote, ``We, with Allah's 
help, call on every Muslim who believes in Allah and wishes to 
be rewarded to comply with Allah's orders to kill the Americans 
and to plunder their money wherever and whenever they find it. 
The ruling to kill the Americans and their allies, civilians 
and military, is an individual duty of every Muslim who can do 
it in any country which it is possible to do it in.''
    What, today, is to stop Saddam Hussein from delivering to 
this criminal individual, who has already participated in the 
murder of thousands of Americans, those weapons of mass 
destruction?

                       SADDAM HUSSEIN AND WEAPONS

    Secretary Powell. Nothing is prepared to stop him today, if 
he chooses to do so. We want to take away his option of doing 
so by disarming the Iraqi regime and Saddam Hussein. The 
chilling words you just read, Mr. Chairman, are from somebody 
who is committed to strike us again and again and again; let 
there be no doubt about it, he will use airplanes filled with 
fuel. He will use car bombs. As he said in those quotations, if 
he had weapons of mass destruction, he would use them.
    Should there be a doubt in anyone's mind that if Osama bin 
Laden or other terrorists like Osama bin Laden had access to 
chemical or biological or nuclear weapons, they would use them? 
If there was a doubt in anyone's mind, that doubt should have 
been erased on 9/11. That is why after 9/11 we realized the 
nature of the conflict we were now in. We had to deal with the 
Taliban in Afghanistan. We had to break up al-Qaeda. You saw 
the recent arrest over the weekend of the gentleman who was the 
brains of the organization that struck us on 9/11. We have to 
go after not only these individuals, but also the potential 
sources of their weaponry.
    That is why we redoubled our effort in making it clear to 
the United Nations that we could no longer allow its 
resolutions to be ignored with respect to Iraq, a known 
developer of weapons of mass destruction. That is why the 
moment we find ourselves in now is a critical moment, where we 
are being tested and where the Security Council, the United 
Nations, and the international community are being tested. Are 
we going to allow an individual, such as Saddam Hussein, to 
continue to develop these weapons of mass destruction or 
deceive us into believing that he is not, when we know he is, 
because it is too hard to face the consequences of dealing with 
the truth, and face a situation some years from now when Osama 
bin Laden has accomplished the goal he laid out in those 
statements, and he has such a weapon, and he got it from Iraq?
    We must go after these countries, these rogue nations, that 
proliferate and are led by leaders who would strike us and who 
have shown in the past they will strike their own neighbors, 
strike their own people, do anything to stay in power and 
pursue their own agenda. That is the argument I will be taking 
to the United Nations this afternoon. This is the time to deal 
with this kind of threat, not after we have seen thousands of 
people die as a result of the use of one of these horrible 
weapons. We cannot allow ourselves to be deterred by false 
claims that ``It is all okay. He is complying,'' when he is not 
complying but merely deceiving the international community and 
trying to keep us from doing what we said we would be prepared 
to do last October--excuse me--November, when we passed 
Resolution 1441.
    Senator Gregg. Thank you. And I want to congratulate you 
and the President for pursuing that policy, because I think it 
should be obvious to all people, whether we wish to admit it or 
not, that we are dealing with a fundamentally evil individual, 
not only in Saddam Hussein, but in Osama bin Laden, obviously, 
and that the coalescence or the convergence of those two forces 
represents a clear, present, and immediate threat to the United 
States.
    My time is up, and I yield to the ranking member.

                            VICTORY IN IRAQ

    Senator Hollings. Mr. Secretary, I support you, support 
your budget. I have some questions about Colombia and General 
Williams, the Embassy there at Berlin.
    This cost sharing proposal and the funding request for 
USAID buildings--the Foreign Operations Subcommittee ranking 
member Senator Leahy will be back momentarily--but I cannot get 
any money back from him. So we have opposed our State 
Department budget funding buildings under another 
subcommittees' jurisdiction.
    Having said that, I am reading here, I am listening to our 
President before the American Enterprise Institute, of a regime 
change. I am hearing you yesterday afternoon. And then I am 
reading yesterday morning, and I quote, ``General Meyers also 
said disarming Iraq would define victory, not capturing or 
killing President Saddam Hussein.'' Is General Meyers correct?
    Secretary Powell. All of the statements that you made 
reference to and the positions you made reference to are 
correct.
    Senator Hollings. Well, that means then you believe we have 
to remove Saddam Hussein, is that not right?
    Secretary Powell. Well, in 1998, the previous 
administration and the Congress believed that the only way----
    Senator Hollings. I am not questioning that.
    Secretary Powell. No, no. I just need----
    Senator Hollings. I have read----
    Secretary Powell. Yes, I am going to come to our position. 
But the Congress and the administration at that time, in the 
face of the intransigence of Saddam Hussein, his unwillingness 
to disarm as a result of previous U.N. resolutions, made a 
judgment that we could not solve this problem with that regime 
in place. So regime change in 1998 became the policy of 
President Clinton's administration. It was to some extent, I 
think to a large extent, endorsed by the Congress in laws that 
were passed at that time.
    When we came into office, we worked to see if there was 
some other way of disarming Saddam Hussein. We modified and 
strengthened the sanctions policies, so that it was not hurting 
the Iraqi people. We worked with our friends and allies to see 
if there was some way to disarm him. We finally got to the 
point where Resolution 1441 was passed. Resolution 1441 passed 
unanimously. It has as its goal the disarmament of Iraq.
    However, what we have seen since 1441 was passed is that 
Saddam Hussein has still not made that strategic choice to 
disarm and allow the inspectors to verify that he is disarming. 
So we are reaching the point that was reached by others in 
1998, such that it appears the only way perhaps to get him to 
disarm is to remove the regime and disarm that nation of its 
weapons of mass destruction.
    But even at this late date, it is possible to find a 
peaceful solution, if Saddam Hussein and the Iraqi regime would 
do what it has been asked to do by the international community 
for all these many years. But we do not take off the table, of 
course, the option of forcible removal of the regime. We have a 
large number of American troops that are assembled there to do 
that.
    But it is the disarmament that is the principal objective. 
I think that is the point that General Meyers was trying to 
make, when he said the regime will be removed. But whatever 
happens to Saddam Hussein, whether he goes into exile or into 
irrelevance, we will have a better situation in Iraq when those 
weapons of mass destruction are gone.

                        REMOVING SADDAM HUSSEIN

    Senator Hollings. Well, you and I would agree in a second 
that if you removed all the weapons of mass destruction in the 
next hour, you would still have to remove Saddam. You could not 
just pick up and then leave with General Meyers and say, ``The 
job is done.'' I mean, that fellow would start building bombs 
all over again. So I guess you and I agree that removing Saddam 
Hussein is the mission.
    You used the expression ``better way, less expensive way,'' 
in order to remove him. I was never worried for the last 10, 12 
years about any imminent threat from Saddam. We have what you 
and I know as the AMLR, the best force, Israel, right there. 
They do not have the luxury of calling up and getting a meeting 
with the United Nations or asking for monitors. They have to 
act in self-defense. And so if there is any imminent threat 
really, they would knock it out by 10:30 or 11:00 o'clock this 
morning, I can tell you that.
    Knowing that, and you used the expression in your major 
testimony there about ``a better way, a less expensive way.'' 
Rather than starting a war and all of these other things to 
remove him, Mossad would know where he is. Why not get a hit 
team and get rid of him? Why start a war in order to do it?
    Secretary Powell. Because I am not sure anybody really 
knows where he is. It is easy to say. It is much more difficult 
to do. I cannot tell you what Mossad or any other intelligence 
agency knows or does not know. This is a man who has spent the 
last 30 years putting in place a security system that has as 
its sole purpose to keep him in place. The suggestion that if 
there was imminent danger, everybody would know where it is and 
could hit it by 10:30 this morning, I think, is not quite the 
case.
    His capabilities are well dispersed. They are hidden. They 
are not easy to find. He has had decades of experience in 
hiding his activities and diverting the attention of those who 
are looking for his prohibited activities.
    Senator Hollings. Well, the 3,000 missiles in this same 
story that are precision guided, are they guided against 
Saddam?
    Secretary Powell. I do not know of any way to guide against 
a particular individual.
    Senator Hollings. Are those military targets alone? Is that 
your answer, just the 3,000 missiles?
    Secretary Powell. No. My answer is that I do not discuss 
targeting that might be conducted by our military authorities. 
In the old days, I used to.
    Senator Hollings. You were the chairman.
    Secretary Powell. But now I do not. I think it is unwise to 
do.
    Senator Hollings. But you know where they are guided. You 
can discuss them. I mean, we have to get the guy. You have to 
hit the palaces, as well as the command and control. You know 
what I mean. Hit a few Scud sites. In fact, if you have any 
good precision guided ones, why not tell the inspectors and let 
them take them up?
    Secretary Powell. The inspectors do not view as their role 
to be part of the U.S. targeting system. If we keep saying all 
we have to do is hit the palaces, I can assure you that the 
place Saddam Hussein will not be in is one of his palaces.
    Senator Hollings. And you do not think----
    Secretary Powell. I do not think he is as targetable as it 
is often suggested. He is a survivor. He is aware of our 
capability. I am sure he is doing everything he can to assure 
his personal survival.
    Senator Hollings. Being a survivor, there would be nothing 
wrong, if we knew to hit him. In other words, when we hit that 
automobile full of terrorists down in Yemen, we announced 
publicly--I would not have announced it, but they did, and said 
terrorists. In a terrorism war, terrorist open season, they are 
combatants. And we can hit them anywhere we can find them.
    So I take it there would be nothing wrong with trying to 
hit Saddam with one of those missiles; would there be?
    Secretary Powell. If we were in armed conflict, which we 
may well find ourselves in, then----
    Senator Hollings. As I understand it, excuse me, but we are 
in armed conflict. The President announced, said, ``We are in a 
terrorism war.'' And in a terrorism war, terrorists are 
combatants. And therefore, you can kill them. That is how he 
justified killing those people down there in Yemen.
    So we have described Saddam in every way possible, 
including as a terrorist. So you could go ahead and hit him, 
could you not?
    Secretary Powell. I, frankly, do not want to talk about 
targeting, who might be targeted, or who might not be targeted 
at an open hearing like this, Senator.
    Senator Hollings. Well, you can see what I am getting at. 
You do not want to level Baghdad to get him. I mean, how do we 
get to victory, according to General Meyers----
    Secretary Powell. We have no intention of--we are not going 
to level Baghdad.

                        DEFINING VICTORY IN IRAQ

    Senator Hollings. I agree; we are not going to level 
Baghdad. So what is going to define victory, other than getting 
him?
    Secretary Powell. Defining victory will be a disarmed Iraq. 
If it is done peacefully, with no invasion and no military 
action required, it would be an Iraqi regime that has foresworn 
these weapons of mass destruction and done so in a way that 
there is reason to believe them. It is hard to imagine 
believing them right now. If there is a military conflict, it 
will require a change in that regime, because they have 
demonstrated they will not change otherwise, and the disarming 
of the country's weapons of mass destruction, putting in place 
a better government for the people of Iraq.
    This has been a terrible government for 30 years. It has 
squandered the wealth of the nation on weapons of mass 
destruction. It is all about the survival of one individual and 
his cohorts in this one regime. The people of Iraq will be a 
lot better off when their weapons of mass destruction are no 
longer cause for the rest of the world to be concerned about. 
If it takes the removal of the regime to do it, because we 
cannot find a peaceful way, then that is what we are prepared 
to do.
    Senator Hollings. Senator Kohl, I recognize you. And I am 
going to leave to vote, too. And the chairman is coming back, 
and----
    Senator Leahy. I believe that I was really here first.
    Senator Hollings. You were here first? Excuse me then. Very 
good. Excuse me, Senator Leahy. But the distinguished Secretary 
has to leave no later than 11:30.
    Senator Leahy. Thank you, Senator Hollings. I understand we 
were doing the early bird rule.

                       CURRENT SITUATION IN IRAQ

    And I am sorry that I had to step out earlier, Mr. 
Secretary. We have one of these judicial confirmation matters 
that come up periodically on the floor of the Senate. And I was 
involved in that. So I had to drop by.
    I understand you are going to the United Nations. I am glad 
you could take the time to come here. I appreciate that all the 
years I have known you, both in the military and now in this, 
you have always been responsive to consulting with the 
Congress. I think it has helped your cause, but it has 
certainly helped our understanding. And I do appreciate that.
    I also appreciate the money that you have helped get in the 
bill for food aid to starving people in Sub-Saharan Africa. For 
that, some of us have been fighting for this for years.
    Now having said that, let me ask you this: A question I get 
in hundreds of letters, sometimes thousands of e-mails from my 
little State of Vermont, is ``How has it come to this?'' They 
are speaking of Iraq, of course.
    When my wife and I go home on weekends, I go in the grocery 
store. I get asked this question from everybody from the people 
stocking the shelves to customers. I get to my house in 
Vermont. People are calling, asking me the same question.
    In the immediate aftermath of September 11, we had hundreds 
of thousands of Germans in Berlin marching in support of the 
United States. We had Le Monde in France declaring ``We're all 
Americans.'' We had unprecedented international cooperation in 
our war against al-Qaeda, including the use of force in 
Afghanistan. Now we have deep divisions within the Security 
Council. Some of our closest allies raise serious questions 
about our effort to launch a war immediately.
    Saddam Hussein is one of the world's worst tyrants. He is a 
war criminal. He is a despicable, dangerous despot. There is no 
question that in a war crimes tribunal he could be convicted of 
heinous crimes. The United States is a country that stands for 
freedom, democracy, and human rights. We stand for making the 
world a safer place.
    But if that case is so clear, why are Russia, China, 
Germany, France, and a dozen other nations saying we are making 
a grave mistake by not giving the U.N. inspectors more time? 
Turkey, which is swimming in debt, turns down our offer of 
billions of dollars. We are threatening to go to war without a 
Security Council resolution. We are causing deep divisions 
among ourselves and within NATO. I have visited with NATO 
leaders, and the United Nations. How did it come to this?
    Secretary Powell. One of the reasons we are here is 
because----
    Senator Leahy. What do I say to Vermonters? What do I say 
to Vermonters who ask me that question?

                HISTORY REGARDING REGIME CHANGE IN IRAQ

    Secretary Powell. We are here because the international 
community has refused to deal with this tyrant, who has all the 
traits and attributes that you mentioned earlier. He is a 
dictator. He has more than oppressed his own people; he has 
allowed rape and murder and all kinds of terrible crimes to 
occur within his country.
    He is not the only one in the world like that. What makes 
him different is he also has been developing weapons of mass 
destruction; there is no question about it. He has had the 
intent to do so, and he has developed them. He has used them in 
a way that no other modern leader has used such weapons, 
against his neighbors and against his people.
    The international community made a judgment, beginning back 
in 1991, that this was unacceptable and that he had to be 
disarmed. He had to give up these weapons. For 11 years, the 
international community kept passing resolutions and did 
nothing about it.
    This administration came into office determined to do 
something about it, to see whether that behavior could be 
changed. We came into office with a strong position from the 
previous administration that this regime had to be changed, if 
it would not change itself. We worked with the United Nations 
to get them to realize the simple reality that this was a 
dangerous regime and that something had to be done.
    What really brought it into focus was 9/11, when it became 
clear, as you heard from Senator Gregg earlier, that we have 
people out there who would do anything to get their hands on 
the kinds of weapons that Saddam Hussein is developing. Now 
some argue back, ``Yes, but you cannot prove that kind of a 
nexus between al-Qaeda and Saddam Hussein. Yes, you have some 
evidence, but it is not good enough proof.''
    Well, we do not want to wait around until the proof is 
ready for a court of law, to say, ``But we have already seen 
chemical or biological weapons made in Iraq show up somewhere 
in New York or in Vermont.'' So we believe this was the time to 
deal with this. We got the United Nations to agree with a 15-0 
vote in the Security Council in early November. All members 
agreed that Saddam Hussein was guilty. He was in material 
breach, stayed in material breach. This is the time for the 
Iraqi regime to change, immediately, unconditionally, right 
now. Inspectors will help verify the disarmament. If Saddam 
Hussein did not disarm this time, there would be serious 
consequences. Everybody who voted for that knew what that 
meant. It meant that if the Iraqi regime did not comply, there 
would be a war.
    There were some at that time who were already beginning to 
say, ``Well, good. We have bought some time and then we will 
buy some more time and some more time. Then this whole thing 
will go away.''

                         STATUS OF ALLY SUPPORT

    Senator Leahy. Is that what our allies are doing? Is that 
what Germany is doing? Is that what France is doing? Is that 
what China is doing? Is that what----
    Secretary Powell. Yes. It is what some of our allies are 
doing. But some of our allies, like the United Kingdom, Spain, 
Italy, Portugal, the newly emerging nations of Eastern Europe, 
and Australia, are standing up with us and standing up 
strongly.
    We have most of these European nations standing up 
strongly, even in the face of public opinion that is in the 
other direction. The new Turkish government, not fully 
installed yet, went to their parliament and asked and lost just 
by a couple of votes. As you heard yesterday, Mr. Erdogan and 
Turkish general staff leaders said, ``We have to go back to our 
parliament, because it is the right thing to do to support 
America.''
    Senator Leahy. I do not want to make any problem there, 
but, as the administration tells us, they have not yet come to 
the appropriators. We are going to have to come up with that 
$10 billion to back up your bet.
    Secretary Powell. Which $10 billion is that, sir?

                             AID TO TURKEY

    Senator Leahy. Well, you are not offering $10 billion or $5 
billion or some number of billions of dollars in aid extra aid 
to Turkey?
    Secretary Powell. The Turkish aid package was $6 billion in 
grant aid, which could be leveraged up through loans to a 
higher amount. But it was $6 billion. And----
    Senator Leahy. No direct----
    Secretary Powell [continuing]. We were quite aware----
    Senator Leahy. No direct amounts?
    Secretary Powell. Yes.
    Senator Leahy. There will be no direct amounts?
    Secretary Powell. No. I am not sure. It is a $6 billion 
amount, some of which is direct, but some of it could be used 
to leverage loans in order to have more impact on the economy.
    Senator Leahy. I do not want to make your negotiations more 
difficult, but I would suggest that the administration come up 
here and talk to both Republicans and Democrats on the 
Appropriations Committee and make sure that the votes are there 
to support the package that is being promised, and that you are 
not taking this money from other prior, equally critical needs 
that both you and I support in the foreign aid bill; because so 
far, we have not been told where that money is going to come 
from or how it is going to be used.
    There is North Korea, which we all agree poses a major 
threat. I have heard statements made, I happen to agree with 
them, that the last thing in the world we want them doing is 
exporting their rockets or their missiles.
    We spent a fortune to track the shipment of missiles from 
North Korea to Yemen. We show our ability to stop the ship 
carrying it on the open seas. And then we say, ``Oops. Sorry 
about that. Go ahead and take the missiles anyway.''
    And I am wondering if, when people see that, when they see 
officials of the administration referring to our allies as 
``old Europe,'' as though they have not faced war and as though 
they do not have a lot of people who are still alive who have 
lived through war on their soil. Those same officials suggest 
the United Nations could be irrelevant, at the same time the 
President's fiscal year budget says the United Nations serves 
U.S. interests by helping end conflicts, restoring peace, and 
strengthen regional stability.
    I mean, which is it? If the United Nations does not go 
along with everything we ask, do they become irrelevant? Are we 
helped by calling countries in Europe ``old Europe'' in a 
dismissive fashion?

                    RELEVANCE OF THE UNITED NATIONS

    Secretary Powell. Well, first of all, with respect to the 
United Nations, if we thought it was irrelevant, the President 
would not have gone there on the 12th of September. But at the 
same time, the United Nations is in danger of becoming 
irrelevant if it passes resolution after resolution that are 
totally ignored by a country in a situation where that country 
continues to develop weapons of mass destruction.
    If the United Nations Security Council fails to deal with 
this issue, certainly there is a degree of irrelevance then in 
the Council's actions on this particular issue. The United 
Nations is a body that we support. We have done a lot of work 
in the last several years, in the previous administration and 
this administration, to clear up our arrears, to rejoin UNESCO, 
and take a number of other actions that show we understand the 
purpose of international organizations. We want to be 
multilateral with respect to our efforts.
    Europe is not of a single mind on the issue of Iraq. I can 
list more countries that are supportive of our position than 
those that are against our position. The fact of the matter is 
that European public opinion is not supportive of our position. 
But I think the anxiety that exists within the international 
community would be gone in a heartbeat if Saddam Hussein would 
do what he is supposed to do; or, in the aftermath of a 
successful military operation, people will see that we are 
doing the correct thing in removing this dangerous threat from 
the region and from the world.
    With respect to Yemen and North Korea, we are deeply 
concerned about North Korean proliferation and have been for a 
long time. In the case of those particular Scuds, when we 
determined that they were not heading to a terrorist 
organization or a rogue state, but a nation that we have close 
relations with, and the Scuds were part of a contract that had 
previously been entered into, and we had assurances from the 
Government of Yemen that the contract was now concluded with 
this last shipment and we would not have to be worried about 
any further sales from North Korea, it seemed the prudent thing 
to do. I think it was the prudent thing to do, to let the 
shipment continue to its owner, a friend of ours, with 
assurances that that was the end of it and that they were 
discharging any further contractual arrangements they might 
have had or entered into with North Korea.
    Senator Leahy. Other Senators are back now. And I will go 
and vote. But two things: One, I hope their new assurances are 
more accurate than their old assurances.
    Secretary Powell. We did not have old assurances that they 
would not purchase. We have new ones.
    Senator Leahy. And secondly, if we are going to continue to 
be offering money and aid to other countries, come on up here 
and make sure that the Congress will actually back up that 
money.
    Thank you.
    Senator Gregg. Senator Kohl.

                      STATUS OF OTHER ARAB NATIONS

    Senator Kohl. I thank you, Mr. Chairman.
    Mr. Secretary, President Bush has said that ``a new regime 
in Iraq would serve as a dramatic and inspiring example of 
freedom for other nations in the region.'' My question to you 
is: How are other Arab states reacting to our aspirations for 
Iraq to be a model democracy, given that our Arab partners in 
the region are currently not ruled by democratic regimes? What 
sort of message are we sending to the current governments, 
particularly at a time when we are relying on some of them for 
support in our war effort? Are we not implicitly saying, ``You 
are next, and, if necessary, by force''?
    Secretary Powell. No. Our friends and I stay in very close 
touch with them and spoke to several of them this morning, they 
know that we have no intention of forcing the overthrow of 
their regime or leadership, either overtly or covertly. But 
they also know, because the President has said this on a number 
of occasions, and I have said it on a number of occasions, that 
we think that democracy is not something that is just 
exclusively for Western nations. Democracy should be able to 
thrive in Arab nations, as well.
    I think what we will be seeing in the years ahead is that, 
as each Arab nation moves further into the 21st Century, they 
will see the benefits of opening their society up to great 
opportunity for women, educating their children for the kinds 
of jobs that will be needed to be performed in those societies 
in the 21st Century, removing state controls on the economy, 
diversifying their economy, and having more representative 
forms of government.
    We do not shy away from making this case to our friends in 
the region. Now, they press back. They have their own culture, 
their own history, and their own traditions. They have been 
nations far longer than the United States of America. So we 
enter into a spirit of dialogue with them. We think each of 
them will have to find their own way into the future, of 
course. We hope that we can be of assistance to them. We are.
    The Middle East Partnership Initiative that I launched not 
too long ago will try to help them with their education of 
young people for the 21st Century by helping to build up a 
civil society. We have fascinating debates and discussions with 
our Arab friends. We believe that we should say to them what we 
believe with respect to the power of a democracy to help 
transform and better their societies.

                            POST-SADDAM IRAQ

    Senator Kohl. Would it not follow that we then go in and 
disarm Iraq so that they are no longer a threat to us and let 
them set up their own society and do it in a way that most fits 
their own needs and aspirations, much as it is true in Saudi 
Arabia and so on?
    Secretary Powell. I think we would have an opportunity 
here, however, to shape this in a way that we can convince them 
that the best way to set up their new society is on the basis 
of openness, on the basis of representative government, and on 
the basis of pulling the diverse elements of the Iraqi 
population into a form of government that respects each of 
those diverse elements and yet keeps it together as a nation. 
So I think we have an important role to play.
    We will not ignore their history, traditions, and culture. 
We could not, even if we wanted to. It's 24 million people. But 
at the same time, we have some experience over the last 50 to 
60 years of going into countries that have not experienced that 
kind of representative government before and getting them to 
see the benefit of it and leaving them far better off than when 
we went in.
    Senator Kohl. So this might be something akin, not exactly 
like, but akin to what we did in Japan after the war?
    Secretary Powell. I do not think it is going to be akin to 
any of the models of the past. I do not think it is like Japan 
or--we are not going to have a MacArthur there for 7 years or 8 
years or a four power arrangement, as we had in Germany. I 
think each one of these is unique.
    Afghanistan was unique, where we were able to put in place 
an Afghan government rather quickly. There were people standing 
there, leaders ready to lead and lead in the right direction. 
We were able to support them.
    There are other models--East Timor, Cambodia, Bosnia, and 
Kosovo. We are studying all of these models to see what would 
fit best in Iraq. But our overall principle is: If a military 
operation is required, obviously then a military commander has 
to be in charge and would be in charge in the immediate 
aftermath of the conflict for some period of time. We want that 
period of time to be as short as possible.
    As we transition to a civilian administration, we will 
bring in international organizations to help with the 
rebuilding and to help with the funding of the whole exercise, 
bring in responsible Iraqi leaders to create their own 
government, work with both people who have been outside and 
inside of Iraq, and work with the traditional leaders within 
Iraq to put in place a government that does not commit itself 
to weapons of mass destruction and threaten its neighbors, as 
the current government has for the last 30 years.

                    SAUDI ARABIA AND 9/11 TERRORISTS

    Senator Kohl. Last question: Fifteen out of the nineteen 
terrorists on 9/11 were Saudi Arabian in their origins. If we 
are going after countries and obviously not willing to abide 
terrorists or those who sponsor them, where does Saudi Arabia 
fit it?
    Secretary Powell. Saudi Arabia has been a friend of the 
United States for many years and still remains one. We are 
troubled that so many came from Saudi Arabia, and they are 
troubled that so many came from their country. We are working 
with them to put in place a better visa system so we know 
exactly who is coming into the United States. We are also 
working with them on searching out sources of financing for 
terrorist organizations. They have been very cooperative in 
that regard. They realize they have a problem within Saudi 
Arabia if they are serving as a place of gestation for these 
kinds of individuals.
    It is not only a threat to the United States. I think we 
are persuading them that it is a threat to Saudi Arabia as 
well.

                                MADRASAS

    Senator Kohl. But do they not have schools that educate the 
young that----
    Secretary Powell. They have schools that I do not think 
have been organized and are being run in a way that is 
consistent with what their educational needs are for the 21st 
Century. Too often, these schools have been educating 
youngsters in a way that would lead some of these youngsters 
into this kind of activity. That is also a subject of 
discussion with the Saudis.
    They have also been funding those kinds of schools in other 
parts of the world. We are now seeing some of the consequences 
of that and taking it up with the Saudis. In fact, as part of 
our effort with Pakistan, Pakistan is trying to redo its 
educational system, so that the schools exist not as a hotbed 
of extremism, but as a place where youngsters get an education 
so that they can contribute to Pakistan and not become a 
problem for Pakistan or for the world.
    Senator Kohl. Thank you, Mr. Secretary.

                        ISLAMIC CENTER IN TURKEY

    Senator Gregg. Mr. Secretary, I just wanted to follow up on 
Senator Kohl's comments a little bit. First, I would note that 
this committee, under the leadership of Senator Hollings, set 
up the Center for Muslim Western Dialogue in Turkey, the basic 
purpose of which is to try to educate folks in the Muslim world 
about advantages of democracy. And we are continuing to fund 
that aggressively.
    And if the Department has other ideas in this area, we 
would be interested in them. These are the types of initiatives 
we would like to pursue. I think Senator Hollings has set out a 
good course here for us to follow in this committee. We would 
like to increase the effort in that area. So I guess we are 
asking for ideas.

                      ROLE FOR FRANCE AND GERMANY

    Secondly, is the issue of post-Saddam Iraq. France has had 
a very significant commercial relationship with Iraq, which 
they have continued during the period of Saddam Hussein's 
leadership and have taken advantage of that criminal regime 
through commercial activity. I am just wondering: What is the 
proper role for France, and even Germany, in a post-Saddam 
Iraq?
    Secretary Powell. Well, I think it remains to be seen. I 
think that once a new government is in place, it will be up to 
that government to determine how they will use their economic 
resources, their oil, their principal source of revenue, and 
who they will enter into various economic arrangements with. It 
is not for the United States to dictate the future of Iraq. It 
is for us, if we have to have a military operation, to hold in 
trust for the people of Iraq their wealth in the form of their 
oil. It will all be used for the benefit of the people of Iraq.
    But it would seem to me that the people of Iraq, now having 
been liberated, might glance around and see who helped and 
participated in that liberation, and who did not.

                        FRENCH ROLE IN THE CONGO

    Senator Gregg. On a tangential issue, we have spent 
approximately $800 million of American taxpayer money in the 
Democratic Republic of the Congo relative to the U.N. 
peacekeeping mission there, which is primarily being pursued 
under the auspices of France as the lead country and as the 
designer of the policy to some degree. And one has to wonder: 
With the lack of cooperation France is giving us on what we 
consider to be a major national strategic issue, our national 
defense and our right to protect ourselves from weapons of mass 
destruction, to what extent is it appropriate for taxpayers to 
continue to support the French position in the Congo?
    Secretary Powell. I think we have to be very careful if we 
are having a particular problem with one of our friends in one 
area, not to see if we can ``get even'' in another area, where 
it does not serve our interest to get even. In the case of the 
Congo, I think the money that we are using and the efforts of 
the French have started to have a result and pay off.
    For example, Germany, even though we have a major dispute 
with them over the issue of Iraq, Germany has troops in 
Afghanistan standing alongside of ours. They have troops in the 
Balkans. We are cooperating with the Germans in a number of 
areas. They are working with us in the global war on terrorism.
    So we can have strong and serious disagreements. I can 
assure you that these disagreements are fought out with emotion 
and heat in the various conference rooms that I spend a lot of 
my time in, but that does not mean that they are suddenly no 
longer our friends or that the place is a hotbed of anti-
Americanism. We are having a dispute over policy. That dispute 
over policy should not necessarily result in the end of 
friendships that have served us well for long, long periods of 
time.
    Now there may be areas where we have to question whether or 
not we ought to be cooperating with them, because if they took 
this attitude here and that same attitude translates somewhere 
else, then they could affect our equity there. So I do not say 
that we should not look at all we are doing. But, I think any 
suggestion of ``Let us get even with them somewhere else'' in a 
way that hurts us is not necessarily the right policy.

                RENOVATION OF U.N. BUILDING IN NEW YORK

    Senator Gregg. On one item which is coming at us, which is 
a big issue financially, is the request by the United Nations 
to build a new building in New York. I mentioned this to you 
earlier, $1.6 billion for a new building. Now, the 
reconstruction of the World Trade Center, which envisions the 
largest building in the world on that site, along with a 
variety of other memorials, is estimated to be less than $400 
million. The building of the Beijing Embassy, which is going to 
be the most expensive undertaking we have ever pursued as a 
foreign construction project, is projected to cost less than 
$500 million.
    The United Nations is asking for something that exceeds the 
cost of the World Trade Center reconstruction by over $1 
billion. This, on the face of it, seems to be excessive. Now 
maybe it is not. But we would like to get some ideas about 
this, since the taxpayers of America are likely to bear the 
biggest burden of this cost.
    Secretary Powell. Yes. The number I have been hearing is $1 
billion. But it is nevertheless a significant number. There are 
other buildings besides just the U.N. building itself that are 
involved. There are various partnerships that have been entered 
into with the City of New York. This is a very complex project, 
made more complex by the fact that the intent is to rebuild and 
renovate, not just start from a piece of ground. I think that 
very prospect adds a lot to the cost of this project.
    It is a historic place. It is a landmark in New York. The 
rebuilding of that landmark is expensive, but I cannot sit here 
and justify the cost. I am not saying the costs are wrong. It 
is just that I am not in a position to tell you I know enough 
about the costing of that project to defend it.
    Senator Gregg. Well, before we get assessed with an 
arrearage from the United Nations for not participating fully 
in that, I think we are going to have to have some real----
    Secretary Powell. I think the request is for----
    Senator Gregg. Maybe we should ask General Williams to be 
in charge of that.
    Secretary Powell. Well, General Williams and I have spoken 
about it. He is looking at the project, just as a matter of 
interest for me, because sooner or later we will be asked to 
come up with an interest-free loan to help pay for the 
building.
    Senator Gregg. Senator Hollings.

                   COMPENSATION FOR IRANIAN HOSTAGES

    Senator Hollings. I appreciate your answer, Mr. Secretary, 
about the French, because I fought with them in World War II. 
They are outstanding fighters. We have the French and the 
Germans and the Turks with us in Afghanistan. And I hope this 
afternoon you can convince them to rejoin us.
    I have always been concerned about Iranian hostages. On May 
22, 2002 you said a plan for compensation would soon be 
submitted. Can we count on getting that plan from you?
    Secretary Powell. I will have to research with my staff, 
sir, and give you an answer for the record.
    Senator Hollings. Yes. Because we have your letter, and you 
stated that on May 22, 2002 that a comprehensive plan for 
compensation would be forthcoming.
    Secretary Powell. Yes. I will try to find out. Obviously, 
it has not been forthcoming. So I will try to find out the 
status of it and get an answer for you.
    Senator Hollings. Very good.
    Secretary Powell. I may have it now. I do not know.
    Senator Gregg. Maybe it just arrived.
    Senator Hollings. It just arrived.
    Secretary Powell. Yes. It is out of my office.
    I know where it is. I will go ask the Director of this 
Office of Management and Budget why it is still there.
    Senator Hollings. Yes. Well, you have quite a task. And we 
appreciate it very much.
    Thank you, Mr. Chairman.
    And thank you, Mr. Secretary.
    Secretary Powell. Thank you, Senator.
    Senator Gregg. Senator Kohl, do you have any additional 
questions?

                        SITUATION IN NORTH KOREA

    Senator Kohl. Just one.
    Mr. Secretary, I and others have been very concerned about 
reports that the United States is prepared to live with a 
nuclear North Korea and that we intend to shift our focus on 
preventing the North Koreans from exporting nuclear weapons to 
other countries. I agree that we need to do all we can to 
prevent North Korea from exporting weapons of mass destruction; 
but I believe that we should not back down from our efforts to 
forestall North Korea from developing nuclear weapons in the 
first place.
    So in that area, why have we decided, or have we decided, 
not to talk to them directly? Is this not the best way to get 
to the bottom of it while at the same time encouraging other 
countries to be a part of the effort?
    Secretary Powell. Well, first of all, I read that report. I 
do not know of any basis for the report, that we have decided 
to live with a nuclearized North Korea.
    The position of the United States is: We do not want to see 
nuclear weapons in the Korean Peninsula. It is also the 
position of China. It is also the position of Japan and South 
Korea. In fact, South Korea entered into an agreement with 
North Korea a little over 10 years ago that guaranteed a non-
nuclear Korean Peninsula, yet another agreement that North 
Korea has violated.
    We are working with all of our friends in the region to see 
that North Korea does not become nuclearized or even more 
nuclearized than it may be, because our intelligence suggests 
they may have one or two nuclear weapons. Some say they do have 
one or two nuclear weapons. We will not know until we actually 
find a way to confirm that.
    So we are working hard to see that they do not move any 
further. Our concern right now would be if they started up the 
reprocessing facility. They have been acting in provocative 
ways. They have been trying to get our attention. We are not 
unmindful of these efforts on their part to get our attention.
    But we are making it clear to the North Koreans that we do 
want to talk, but we want to talk in a multilateral forum. Why 
do we want to do that? Because it is not just a problem between 
the United States and the DPRK. That is the way they want to 
see it. It is a problem with the DPRK and the international 
community and with the DPRK and the International Atomic Energy 
Agency, which has condemned them for breaking the seals and 
moving in the direction to restart the reactor. It is a problem 
between the DPRK and South Korea for violating their agreement 
with South Korea. It is a problem between the DPRK and Japan, 
China, Russia, and many other nations.
    Therefore, we are looking for a multilateral way to deal 
with this problem. Now, every time I pick up the paper in the 
morning, it says a quick solution is, ``Why do you not just 
call them up and go talk to them?'' Well, that is what happened 
some years ago when we came up with the Agreed Framework. The 
Agreed Framework served a useful purpose in capping the 
Yongbyon facility so that it was not producing any more 
fissionable material. I give credit to the Agreed Framework for 
having done that for eight years.
    But at the same time, the potential for developing 
fissionable material was left in place at Yongbyon by the 
Agreed Framework. As the ink was drying on the Agreed Framework 
and a number of other assurances that the North Koreans gave 
us, they had started work on another form of enrichment, 
enriched uranium, to produce the material needed for nuclear 
weapons.
    While we thought we had them, you know, in one jug with a 
cork in the jug, even though the jug was left there to be 
uncorked, they were working on another jug. We found out about 
it last year. We did the right thing; we called them to 
account.
    We said, ``We know you are doing this. This is in violation 
of all the commitments you have made over the years to the 
South Koreans and to the international community. It is in 
violation of the Agreed Framework, the basic intent of the 
Agreed Framework.''
    Their response was, ``Yes, we did it. Now come talk to us, 
and we will see what kind of framework we can come up with this 
time.''
    Well, what we are saying is: This time it has to be solved 
for good. It will only be solved for good if it involves all of 
the nations who are in the region. North Korea has tried to, 
through its provocative steps over the last several months, get 
the attention of the world on this issue and get the attention 
directed toward us. The attention should be directed toward the 
North Koreans. They are the ones who have people who are 
starving. Not one person will be saved by enriched uranium or 
by more plutonium coming out. They have blown the opportunity 
they had to get enormous assistance from Japan by their 
actions.
    We have a number of diplomatic initiatives underway, some 
of them very, very quietly underway, to see if we cannot get a 
multilateral dialogue started. We are looking for a peaceful 
solution to this problem. We are committed to a non-nuclear 
Korean Peninsula.
    Senator Kohl. Thank you, Mr. Chairman.
    Senator Gregg. Thank you, Mr. Secretary. I appreciate you 
taking the time.
    Well, we have been joined by the chairman of the full 
committee. So obviously we defer to the chairman of the full 
committee for any questions he may have.

                        SENATOR STEVENS' REMARKS

    Senator Stevens. No questions for my good friend. I am 
happy to have a chance to be here and to tell the world what a 
great job I think you are doing, Mr. Secretary.
    Secretary Powell. Thank you, Mr. Chairman.
    Senator Stevens. I look forward to working with you in any 
way possible.
    Secretary Powell. Thank you, sir. I was up at Elmendorf the 
other day. It looked great up there.
    Senator Stevens. Well, the next time we will arrange a site 
trip around the State, maybe do a little marine research.
    Secretary Powell. Yes, sir. I know the kind you have in 
mind. I look forward to it.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Gregg. Mr. Secretary, we will let you get up to the 
United Nations. And thank you again for what you are doing for 
the country.
    Secretary Powell. Thank you for your courtesy, Mr. 
Chairman.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted by Senator Judd Gregg
                    diplomatic readiness initiative
    Question. Could you walk us through the methodology State used to 
arrive at the numbers for the Diplomatic Readiness Initiative? What 
internal review process took place to determine where additional 
personnel were needed? Why, during this internal review process, wasn't 
the Department also able to identify posts that were overstaffed for 
right-sizing? If such a review took place, why has the Department been 
unable to tell the Committee where exactly the new FSOs will be placed?
    Answer. The Diplomatic Readiness Initiative (DRI) addresses many of 
our core needs, some of which are determined by our Overseas Staffing 
Model (OSM) and training requirements. The Overseas Staffing Model is 
the primary tool for determining baseline overseas staffing needs. It 
provides an objective, flexible tool to measure what resources are 
needed to meet the President's and the Secretary's foreign policy 
priorities and objectives. The OSM quantifies what we need to achieve 
the International Affairs Strategic Goals, to meet legislative 
mandates, and to fulfill our responsibilities to support the full USG 
presence overseas. This model, made up of seven components (``core 
program,'' consular, public diplomacy, etc.), identifies the staffing 
requirements at overseas posts based on specific categories and 
criteria and provides a comparative assessment of posts. It evaluates 
each post using workload indicators and host country factors. The OSM 
serves as a baseline and specific staffing decisions are made through 
the budget and planning process. The OSM showed in 2001 that we had 
needs expressed as 386 positions overseas that were not being met. The 
DRI request for 1,158 positions covered this shortfall.
    In addition, we determined we needed to be able to meet other needs 
without straining our workforce. In order to have people in training 
and to avoid staffing gaps when transfers and crises occur we need 
enough people in the system. The remaining DRI positions are to cover 
establishment of long-term training positions (such as for languages) 
or detailee positions--to which employees are assigned--as well as to 
increase our base level of employees. While we need more people to meet 
crisis response and emerging priority needs, we do not have people in 
positions designated as ``waiting'' for that crisis to occur; rather, 
we planned to use new DRI positions to meet those policy, program, or 
infrastructure support needs identified by the Department during our 
budget and financial plan cycle. The increases to overall staffing 
would reduce the strain when employees were sent to short term training 
(such as under our new mandatory leadership and management training 
initiative) or when they needed to be reassigned to higher priorities. 
The DRI therefore is about flexibility and preparedness rather than 
specific position-by-position detailed needs. This is also partly due 
to the nature of the Foreign Service system of ``people in motion'' 
rotating between positions as well as the inherent unpredictability of 
foreign affairs.
    The Department's senior leadership makes final decisions on the 
Department's staffing requirements, hiring plans, and position 
allocation based on emerging priorities, funding potential, Overseas 
Staffing Model projections as well as the Senior reviews led by the 
Deputy Secretary. This ensures that staffing decisions are made in 
support of mission requirements. The strong linkage between strategic 
priorities and resource decisions--with senior management involvement--
ensures the Department's ability to meet our mission. The exact 
allocation of the new positions created in fiscal year 2004 will depend 
on the results of those decisions.
    While the OSM identified that overseas staffing was below what is 
required, this does not mean that we have not identified places where 
staff can be reallocated. ``Rightsizing'' is an ongoing process. The 
Department continually reviews changing priorities and emerging issues 
and reallocates positions among regions or between functions so that 
higher priority needs are met. During the 1990's, as the Department 
downsized its employment, the necessity to reallocate scarce resources 
in line with priorities became paramount. Oftentimes, people were 
pulled to address new issues while old ones still existed. In our 
strategic planning and budgeting process we require missions to assess 
how they could meet their new needs within existing resources.
    Now, thanks to increased hiring, posts and regional bureaus have 
been able to move resources to meet the priority counterterrorism 
mission while still continuing to staff other critical requirements. As 
we have added positions overseas in the last few years, we have 
increased infrastructure across the board so that posts are not as thin 
as they had been, but more positions have gone to posts in the Middle 
East and South Asia.
                     personnel placement decisions
    Question. Have the events of September 11, 2001 impacted personnel 
placement decisions? In other words, has the list of posts slated to 
receive personnel increases changed in light of September 11?
    Answer. Post September 11 the Department immediately reprioritized 
and moved people and resources to meet the emerging counter terrorism 
mission. New positions were established based on the new needs being 
identified, particularly in the consular area. These needs are likely 
to become permanent needs that will have to be regularized and will 
need to be treated as a baseline requirement.
    We have had to use some of the Diplomatic Readiness Initiative 
(DRI) positions to cover new consular needs in the wake of 9/11 when 
the workload went up even as MRV fee revenues--which have funded many 
consular position increases--went down. We have also had increased visa 
processing requirements that have increased workload while we have also 
worked to ensure that we have fully trained commissioned Foreign 
Service Officers in all positions. In the short run we have had to meet 
these new requirements within our current workforce. These requirements 
will need to be met continuously, but the original DRI did not envision 
these changes.
    Baghdad is being staffed now by TDY employees from other embassies 
and the Department. The staffing gaps left behind may be acceptable in 
the short run, but for the longer term they must be filled. In 
addition, we must account for the Washington backup of these new 
programs, such as the new office supporting the reconstruction of 
Afghanistan.
    Even though we had to use some DRI positions for these unexpected 
contingencies, we still need the personnel complement foreseen by DRI 
to make training and future crisis response possible.
                           consular officers
    Question. Mr. Secretary, your budget request includes an increase 
of $28 million to hire an additional 68 Consular Officers. Why was this 
not included as part of the Diplomatic Hiring Initiative request?
    Answer. The Diplomatic Readiness Initiative (DRI) request was 
introduced as a three-year plan by Secretary of State Powell in 2001 to 
fill gaps created by underhiring in relation to workload in the 1990's. 
The DRI addresses many of our core needs, some of which are determined 
by our Overseas Staffing Model and training requirements. However, some 
personnel requirements are assessed and resources requested separately 
such as security, IT, and consular, which tend to have specific needs 
due to outside events. The DRI request did not take into account the 
additional requirements that would follow from the events of September 
11th. Currently, the Department is assessing future personnel needs 
taking into account the long-term needs of the Department, to include 
the implications following the events of September 11th.
    The 68 CA positions that are referenced in the question represent 
new positions not originally contemplated in the DRI. These positions 
will be used to replace temporary consular associates with full-time 
consular officers. This is a critical element in the Department's' 
efforts to support homeland security initiatives.
    Additionally, Consular positions have traditionally been funded 
through the MRV fees collected by the Department. Post September 11, 
travel has decreased and therefore so has MRV income. This means that 
we need to request appropriated funds for these additional personnel 
requirements.
                              right-sizing
    Question. What progress has the Department made towards right-
sizing? Can you tell me where, for example, the Department has actually 
decreased the number of U.S. personnel stationed at a post? Could you 
have your staff transmit a list of the Department's right-sizing 
``success stories?''
    How do you reconcile the DRI with the concept of rightsizing? How 
does the Department justify bringing on 1,158 new FSOs when it has yet 
to maximize its existing human capital by carrying out its commitment 
to right-size overseas posts?
    Answer. The Department of State and the Office of Management and 
Budget (OMB) agree with the General Accounting Office's definition of 
rightsizing:

    ``Rightsizing [is] aligning the number and location of staff 
assigned overseas with foreign policy priorities and security and other 
constraints. Rightsizing may result in the addition or reduction of 
staff, or a change in the mix of staff at a given embassy or 
consulate.''

    The Department uses a variety of tools to rightsize its overseas 
presence, as described below. Our rightsizing is one component of the 
broader President's Management Agenda (PMA) rightsizing initiative, led 
by OMB, which looks at all agencies with overseas staffing. We are 
working closely with OMB to ensure the success of the overall PMA 
initiative.
    Diplomatic Readiness Initiative.--The DRI is an integral part of 
State's rightsizing, i.e., it addresses fundamental staffing needs to 
reverse the trend of the early 1990s when we hired under attrition. We 
need these positions to fill unmet needs overseas and to provide for 
enough personnel to respond to crises and go to training without 
leaving staffing gaps.
    Overseas Staffing Model.--The OSM is our workforce planning tool 
that assists management in allocation of resources, including those 
needed to support the USG diplomatic platform. The OSM provides an 
objective, flexible tool to measure what resources are needed to meet 
the President's and the Secretary's foreign policy priorities and 
objectives.
    Strategic Planning and Human Resource Allocation Processes.--The 
Mission Performance Planning (MPP) process integrates strategic human 
capital planning elements into the planning process with the 
categorization of staffing and funding resources by strategic goals, as 
required by the Government Performance and Results Act (GPRA). This 
enables each mission's senior management to assess the commitment of 
human resources across the strategic goals, and also assists State 
regional bureaus to better distribute State Operations and Foreign 
Operations funding across the strategic goals.
    Regionalization.--The Department of State has long made extensive 
use of regional offices to help us meet the needs of difficult or 
dangerous posts. Regional centers exist in the United States (e.g., 
Charleston, South Carolina; Fort Lauderdale, Florida; Portsmouth, New 
Hampshire), at major overseas hubs (e.g., Frankfurt, Bangkok), and at 
smaller sub-hubs on an ad hoc basis (e.g., Dakar, Hong Kong). Regional 
support provided from these centers allows the Department to accomplish 
a variety of complementary goals, including improving the overall 
efficiency of our global operations, supporting specific posts which 
could not otherwise operate effectively, and reducing the burden of 
workload, and thus staffing, at many of our most dangerous or difficult 
overseas posts. The Department is constantly reassessing the specific 
needs of particular posts and adjusting regional support accordingly.
    In addition, the Department has underway a number of initiatives 
designed to apply the benefits of continuing technological improvements 
to rightsizing. One prominent example: By the end of this fiscal year, 
the Department will complete the transfer of significant financial 
management support operations from Paris, France to Charleston, South 
Carolina, as a result reducing 109 positions in Paris.
    This action was made possible by improvements in our financial 
management systems software. We now have one overseas accounting system 
that replaces the two former legacy systems that complies with Federal 
Managers' Financial Integrity Act (FMFIA) requirements and facilitates 
the compilation and reporting of data for the Department's financial 
statements. With further enhancements, posts in Europe, Africa, the 
Near East and South Asia will be able to communicate and conduct 
certain financial operations electronically, with ``real time'' access 
to financial systems. These management actions reduced the need to 
maintain overseas staff at the Financial Service Center in Paris to 
support these posts and reinforced the decision to consolidate many 
financial operations in Charleston.
    Post Openings and Closings.--Rightsizing affects not merely the 
size of U.S. posts but also their distribution. Perhaps the best 
illustration of the Department's ongoing rightsizing efforts is the 
near-constant activity to open, close and relocate overseas diplomatic 
posts. Since 1990, we have opened 52 new posts (29 embassies, 23 
consulates, consulates general, branch offices, etc.) and closed 43 (11 
embassies, 32 consulates, etc.).
                          embassy construction
    Question. Mr. Secretary, what impact has 9/11 had on the way the 
Office of Overseas Buildings Operations approaches designing and 
building embassies abroad? Do you think the lessons of 9/11 were that 
we need to build more heavily fortified embassies? Or, do you believe 
that 9/11 demonstrated that we simply cannot build buildings that are 
100 percent secure and must therefore look to mitigate the threat in 
other ways (such as better deterrence and prevention)?
    Answer. The watershed event that reshaped the mission of the Bureau 
of Overseas Buildings Operations was the August 1998 bombings of our 
embassies in Dar Es Salaam, Tanzania, and Nairobi, Kenya. The events of 
9/11 served to reinforce the continuing threat and therefore the urgent 
need to accelerate the construction of new facilities that can satisfy 
the Department's stringent security requirements and protect our 
diplomatic personnel by providing secure, safe, and functional office 
and residential environments. We appreciate the support the Congress 
and this Committee have given to our efforts.
                              soft targets
    Question. Mr. Secretary, does the possibility of further and 
perhaps more ambitious attacks against post housing, churches 
frequented by Americans, and American Schools concern you as much as it 
does me?
    I would not suggest that we should shift resources away from the 
security of our official buildings in favor of enhancing security at 
non-official locations. However, we must do more to assure the safety 
of overseas personnel outside the embassy walls. Above all, we must 
assure the safety of our children in their schools overseas.
    What do you believe is the State Department's proper role in this 
area? What level of responsibility should State bear for the security 
of non-official locales? Based on the risk and threat assessments that 
have, presumably, been conducted on these non-official locales, do you 
believe they/we are prepared? When can we expect the $15 million 
provided in the fiscal year 2003 Conference Report to start being 
distributed? Do you believe additional funds are necessary to protect 
U.S. personnel and their families in ``soft target'' environments?
    Answer. The possibility of attacks against soft targets overseas 
most certainly concerns me. However, there exist many more soft targets 
overseas where Americans gather than the U.S. government could ever 
possibly protect. I believe we must pursue a dual strategy. First, 
identify those soft targets that are readily identified with, and in 
some way connected to, U.S. Diplomatic facilities abroad. Housing for 
our employees overseas and schools supported by our missions certainly 
fit in this category, and it is appropriate that Congress has provided 
funding to mitigate security vulnerabilities in those areas. We should 
recognize, though, that in the latter case, a great many other children 
attend as well, American and non-American. Normal security costs should 
be borne by all that attend and be reflected in tuition costs. Our role 
for the schools should be to provide security advice and counsel, and 
to provide grants for high priority security upgrades such as window 
films, emergency public address systems, and communications with 
Embassies and local police and security.
    To ensure that the $15 million provided in the fiscal year 2003 
Conference Report, as well as the additional $10 million in the 
Supplemental, is distributed wisely, the Department has a working group 
with officers from the bureaus of Overseas Buildings Operations, 
Diplomatic Security, and the Office of Overseas Schools. We expect that 
funding may be provided to some schools prior to the end of the fiscal 
year, and continue over a 3-year period.
    For the many, many other possible soft targets, I believe our 
continuing responsibility, and a role that we fulfill very well, is to 
provide timely and accurate advice that fits the local situation. We 
fulfill this responsibility every day with Consular information 
bulletins, Overseas Security Advisory Counsel (OSAC) local country 
counsels, Regional Security Officer briefings, and other outreach 
programs.
    Question. How has the Consular Affairs mission changed in the 
aftermath of 9/11? Would you agree that the mission your consular 
officers perform is vital to our national security? What are the pros 
and cons of the Department's tradition of requiring new Foreign Service 
Officers to serve their first tour in Consular Affairs? Do you think 
this policy has contributed to creating a culture at State where CA 
officers are second class citizens? Do you agree that Consular Affairs 
is a sufficiently important component of the Department's mission that 
it should be staffed by career FSOs, rather than by novices?
    In my visits to U.S. embassies abroad, I have noted that it is 
often the Consular Affairs sections where conditions are the worst 
(most crowded, etc.). In my view, there is a direct link between the 
quality of CA workspace and the productivity and efficiency of our 
consular officers. Would you agree with this? What are you doing to 
change this situation?
    Answer. The work of Consular Affairs is a vital element of our 
country's overall plan to protect our national security. As part of our 
border security program, we have made significant changes in the wake 
of 9/11. We have expanded our automated lookout system to include more 
information shared with us by other government agencies and increased 
the number and type of special clearances required for applicants of 
particular concern. Our automated system now requires that we collect 
additional information on all visa applicants. And we are limiting the 
circumstances in which a personal appearance can be waived for visa 
applicants. All of these changes require additional personnel, and we 
have created additional positions to help meet this workload.
    The Department's traditional policy of requiring all junior 
officers to serve a tour in a consular assignment abroad has benefits 
for both the officer and the Department. The officer has an early 
opportunity to develop management skills, demonstrate leadership, and 
hone interpersonal and foreign language skills. For the Department, the 
Junior Officer's consular tour can be a chance to see how the officer 
performs in a difficult situation, dealing with both American and 
Foreign Service National (FSN) colleagues as well as with often 
demanding host country nationals. The officer's performance in the 
consular tour is a vital factor in determining whether the officer 
should be tenured in the Foreign Service.
    Junior Foreign Service Officers (FSOs) have gone through a rigorous 
examination process to arrive at this point. In addition to the 
consular training at the Foreign Service Institute, which has recently 
been expanded, they bring a wealth of academic and real world 
experience to their jobs. They are dedicated and motivated 
professionals who take their role in protecting homeland security 
seriously. Our junior officers are closely supervised by more senior 
career consular officers. At posts staffed by only a single consular 
officer, the Deputy Chief of Mission takes on the supervisory role and 
an experienced regional consular officer visits the posts regularly to 
provide management oversight and advice for the consular function.
    The consular cone is one of five career tracks for Foreign Service 
generalists. All Foreign Service generalists have the opportunity to 
serve in positions out of cone to broaden their experience and to 
compete for positions such as Deputy Chief of Mission.
    It has often been difficult for the physical facilities in our 
consular sections abroad to keep pace with the increasing numbers of 
personnel, both Foreign Service Officers and Foreign Service Nationals, 
required by the visa process, which has become even more complex in the 
post 9/11 world. The employees engaged in this vital work deserve 
working conditions that are secure, safe, and adequate for the job.
    Our Bureau of Overseas Buildings Operations (OBO) has embarked upon 
an ambitious building program to complete new embassies on time and 
within budget. The Bureau of Consular Affairs works closely with the 
designers and planners at OBO to ensure that consular sections in new 
embassy buildings are adequate to permit an efficient and effective 
consular operation. CA and OBO continue to work together to refine the 
standards for consular sections now being designed. OBO and CA also 
work collaboratively in the rehab of facilities to permit consular 
sections to be rehabbed along with other parts of the buildings. In 
order to react more quickly to fluctuations in consular workload, OBO 
is also looking at acquiring commercial space for consular sections. In 
the fiscal year 2003 appropriation, Congress directed OBO to undertake 
a 3-year Consular Workspace Improvement Initiative, earmarking up to $8 
million of OBO funds for this purpose. CA has worked closely with OBO 
to prioritize these projects.
    Question. Mr. Secretary, protecting information at our posts 
overseas is costly. If we had the technological capability to store 
information in the United States, rather than at post, wouldn't this be 
worth looking into? Would you agree such a technology could reduce the 
number of overseas personnel required to assure the security of 
information, and thus result in cost-savings?
    Answer. For the past two years, the Department of State has been 
exploring the technological capability to store information in the 
United States rather than at our overseas posts.
    We are also studying the implementation of the High Assurance 
Virtual Wide Area Network (HA VWAN) which will provide classified 
connectivity to critical threat posts and to posts that have 
environments with weak physical, administrative or technical security 
controls. This program would reduce classified holdings. A pilot on 
this technology will commence in Summer 2003.
    But at the core of my Information Technology priorities is to 
replace the current 60-year-old ``cable'' technology used by the 
Department and other Foreign Affairs Agencies with a new system. This 
new technology called SMART (State Messaging and Archive Retrieval Tool 
Set) will provide centralized storage in the United States of all 
document types (currently cables, memorandum, informal messages and 
notices).
    It will give our diplomats access to more information and minimize 
the holdings at a post because posts will access data from a server in 
the United States. We expect to deploy SMART in fiscal year 2005.
    While SMART will provide some reduction in classified holdings, we 
will need to continue to ensure the protection of the information and 
equipment that remains at post.
    However, we cannot guarantee, at this time, that there will be a 
reduction in the number of overseas personnel required to maintain, 
operate and ensure the integrity of our information stored overseas. 
Existing Marine Security Guard requirements would not be affected.
    Our Information Specialists safeguard and are responsible for the 
classified network infrastructure including encryption, COMSEC, and 
other classified network components that must be maintained and 
protected.
    The mandated duties of our Information Systems Security Officers 
(ISSOs) will not decrease significantly. While compliance and reporting 
requirements have increased in recent years, posts are not yet staffed 
properly to meet those new requirements. A restructuring of the duties 
of Information Specialists at overseas posts would enable the 
Department to better meet these reporting responsibilities.
    Question. I understand that the estimated cost of renovating the 
U.N. headquarters complex in New York City is $1.6 billion. Mr. 
Secretary, the design for the World Trade Center site (encompassing a 
museum, and opera house, a mall, and five office buildings, one of 
which will be the tallest building in the world) is expected to cost 
only $350 million. How is it possible, then, that the cost of 
renovating the U.N. headquarters is $1.6 billion?
    A reasonable person would expect that security of the new World 
Trade Center site would be as robust as any building complex in New 
York City. The cost of the new U.S. embassy compound in Beijing, China 
is expected to be $438 million. Surely the cost of security at the U.N. 
complex in New York City will not exceed our security costs in China by 
$1.2 billion. Can you explain this?
    Answer. As the design phase of the U.N. Capital Master Plan 
progresses, the Department remains in regular contact with U.N. 
secretariat officials to monitor closely the cost estimates and 
assumptions of the project to ensure that they are realistic and 
reasonable. Also, the General Accounting Office has just completed an 
updated study on the project--including the issue of cost estimates--
and we urge you to examine the conclusions of that report when it is 
released shortly.
    The cost components of the U.N. Capital Master Plan, as currently 
estimated, are as follows:
  --Baseline cost: $1.05 billion, including rental of swing space; and
  --``Scope options,'' related to additional security, energy 
        efficiency, and system contingencies: $150 million, assuming 
        all were to be included in the final design.
  --In addition, as part of the overall plan, the U.N. Development 
        Corporation--a public benefit corporation of the State and City 
        of New York--has proposed to construct a new office building 
        just south of the existing U.N. compound which would be used as 
        swing space during the renovation of the existing U.N. 
        facilities (permitting all staff to relocate and allowing the 
        renovation work to proceed all at once, thus reducing costs) 
        and ultimately to consolidate U.N. staff currently housed in 
        several rental buildings off the U.N. compound, with no added 
        costs to the United Nations.
    Security is a vital component of both the Beijing Embassy compound 
as well as the U.N. headquarters facilities. However, security elements 
do not represent the majority of the cost factors for either project. 
It is very difficult to compare these two projects, as they serve 
considerably different purposes. For the Beijing compound, our Office 
of Overseas Building Operations is working with a budget of $434 
million and is designing facilities to accommodate 846 staff as well as 
consular operations. The U.N. headquarters complex will continue to 
accommodate the needs of 191 U.N. member states and approximately 4,700 
U.N. staff. The existing U.N. facilities do not conform to current 
safety, fire, and building codes and do not meet U.N. technical or 
security requirements.
    The Department is not involved in the redevelopment of the World 
Trade Center (WTC) site and would refer you to the New York City 
Economic Development Corporation for the actual figures relating to 
that redevelopment project. We understand, however, that the total 
costs for the redevelopment will be significantly higher than the $350 
million figure, which we understand may only represent an estimate for 
the cost of the World Trade Center Memorial (as distinct from the 
facilities cited in your question).
    Question. The fiscal year 2007 State Department Appropriations Bill 
required the Secretary of State to notify Congress 15 days before the 
United States votes in the U.N. Security Council to establish or expand 
a peacekeeping mission. Mr. Secretary, since we have to fund these 
missions, do you believe Congress should have a more formal role in the 
decisions leading up to the Security Council votes? Wouldn't this 
lessen the need for Members of Congress to place ``holds'' in order to 
effect change in these missions?
    Answer. Pursuant to legislation, the Administration provides 
monthly briefings to Appropriations and Authorization Committee staffs 
on current and prospective peacekeeping missions and information 
related to expenditures from the Contributions to International 
Peacekeeping Activities (CIPA) appropriation. The Administration also 
provides formal Congressional notifications for proposed votes in the 
U.N. Security Council for new or expanded missions. We believe 
information provided provides sufficient information to permit the 
Appropriations Committees to exercise its Constitutionally-required 
responsibilities.
    Question. At the hearing, I raised the point that the American 
taxpayers have contributed more than $800 million to the U.N. 
peacekeeping mission to the Democratic Republic of the Congo. This 
mission is very important to France, and the United States has 
cooperated with the mission in every way. The Iraq resolution was 
important to the United States, and yet French negotiators took every 
opportunity to undermine U.S. efforts towards that end.
    Mr. Secretary, you indicated in your testimony that we should not 
break ties with our allies in one area merely because we are in 
disagreement with them in another area. Do you not support the concept 
of issue-linkage? Would you agree that issue-linkage is one of our most 
important diplomatic tools?
    If, in the case of the Congo peacekeeping mission, you believed 
that continued U.S. participation was vital to U.S. national interests, 
could you give me other examples of where the United States employed 
issue-linkage to try to elicit greater cooperation from the French (and 
Germans) in the U.N. Security Council negotiations over an Iraq 
resolution?
    Answer. The United States supported establishment and continuation 
of the U.N. peacekeeping mission in the Democratic Republic of the 
Congo, and requested funding to pay for our portion of U.N. 
peacekeeping assessments, because we believed, and continue to believe, 
that MONUC can contribute to restoration of stability in this critical 
African nation, which can help remove this destabilizing factor in 
Central Africa. You are correct that support to MONUC was an issue of 
high importance to France, but it is also an issue of high importance 
to the United States.
    As I have said publicly, France's intransigence in the United 
Nations Security Council on a resolution to follow UNSCR 1441 has 
consequences for our future relationship. There will be issues of 
special importance to France where we will seek to get their attention, 
but we should not fail to act on issues of manifest interest to the 
United States.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici
    Question. Late last congress, I joined with Senators Biden and 
Lugar in sponsoring the ``Nuclear and Radiological Threat Reduction 
Act.'' This legislation would authorize the Secretary of State to take 
specific steps to prevent the use of dirty bombs as a terrorist weapon. 
It is my understanding that this bill is likely to be introduced again 
this Congress.
    Also in the 107th Congress, the Senate passed my legislation 
authorizing the National Nuclear Security Administration to take the 
lead in the Department of Energy's strategy for combating radiological 
terrorism. Enhanced technology, mitigation systems and international 
cooperative efforts are a few of the mechanisms prescribed by my bill 
to better safeguard nuclear materials that are being sought by 
terrorists.
    In addition, my bill, which is now law, calls for greater 
coordination between all Federal departments and agencies with 
responsibilities for nonproliferation.
    Given the significant roles of both the State and Energy 
Departments in addressing issues of nonproliferation, I believe there 
is opportunity for tremendous synergy between them in addressing the 
problem of nuclear terrorism.
    Would you offer your thoughts about how the Department of State and 
the Department of Energy can more effectively coordinate efforts so as 
to maximize our progress on this issue?
    Answer. In combating radiological terrorism, coordination between 
the Department of State, NNSA and other agencies has improved regarding 
the detection of illicit nuclear and radioactive materials. Working 
with NNSA, the Department of State has taken the lead with NNSA/Second 
Line of Defense (SLD) in organizing an inter-agency effort by the 
Department of Homeland Security, State, Energy and the Department of 
Defense to develop a strategy for assisting key countries overseas in 
their detection of illicit nuclear materials. NNSA/Second Line of 
Defense assisted greatly in the drafting of an USG interagency 
strategic plan for provision of radiation detection equipment, which 
provides an action plan and performance measures to guide our efforts 
on this key anti-terrorism/nonproliferation initiative.
    State and NNSA are also executing a joint plan for maintaining, 
repairing and replacing radiation detection equipment the USG has 
provided to foreign countries in recent years. In 2002-2003, this 
program, using SLD assets, was very successful in performing required 
maintenance and re-training in several countries where equipment has 
been in active use for some time.
    Yet much remains to be accomplished in terms of denying terrorists 
access to high-risk radioactive sources. With your help, NNSA has made 
a good start on securing these sources. As you have stated, there is 
indeed an opportunity for tremendous synergy between the Department of 
State and NNSA.
    We believe that a diplomatic solution is the key to a meaningful 
long-term solution. The security of radioactive sources depends on 
convincing states to change the fundamental ways that they manage and 
secure sources. Governments must agree, and be committed, to secure 
high-risk radioactive sources and keep them secure throughout their 
life cycle. The Department of State has a history of engaging foreign 
governments at the highest levels to secure these types of commitments.
    More broadly, we are using the Nonproliferation and Disarmament 
Fund (NDF) to tackle tough, urgent and often unanticipated problems on 
a worldwide basis. We expect that NDF in the future could be used to 
help countries develop infrastructures to secure radioactive sources 
and track dangerous materials, including through the NDF's existing 
``Tracker'' automated software system that helps governments strengthen 
control over sensitive exports. We hope that requested fiscal year 2004 
increases in NDF funding will support the Department's Dangerous 
Materials Initiative (DMI) to secure radioactive materials, pathogens 
and sensitive precursors. DMI aims for synergies among U.S. Government 
agencies and programs and also with international partners.
    We believe that an ongoing dialogue between NNSA and the Department 
of State, along with other relevant agencies, is necessary so that 
technical and diplomatic efforts can be combined to ensure that high-
risk radioactive sources are secured over the long term.
                   russia and iran's nuclear program
    Question. I remain concerned about Iran's drive to obtain a nuclear 
capability. Despite its claims to the contrary, Iran's construction of 
new nuclear facilities along with announced plans to mine uranium point 
to its growing ambition to advance a nuclear weapons program.
    Russia's technical assistance to Iran's nuclear program has been a 
source of frustration for the United States. It has hastened Iran's 
efforts while slowing development of the new strategic partnership 
between Russia and the United States.
    It is my understanding that State Department officials were 
recently in Moscow to discuss arms control issues in general and the 
Iranian nuclear matter specifically.
    Can you report on the substance of those discussions? Do the 
Russians share our concerns about the prospects of a nuclear-armed 
Iran? Have they indicated a willingness to consider terminating their 
support of the Iranian program?
    Answer. We raise the subject of ending Russian nuclear cooperation 
with Iran at every opportunity with senior Russian officials.
    In these meetings, the Russians have professed to share our concern 
about the prospects of a nuclear-armed Iran. And recent revelations 
about the extent of the Iranian program to develop nuclear weapons have 
been very useful in making clear to Moscow that Tehran is indeed 
pursuing this objective.
    We appear to be making some progress in our discussions in curbing 
Russia's nuclear cooperation with Iran. The Russians have agreed to 
some measures that mitigate the nonproliferation risks of their 
cooperation--such as providing fuel for the lifetime of the Bushehr 
reactor as well as taking back all the spent fuel to obviate any 
rationale for Iran to develop fuel cycle facilities.
    Much remains to be done, however. We continue to press the Russians 
to agree to end all their nuclear cooperation with Iran and more 
effectively prevent Russian entities from cooperating in other 
sensitive areas such as missile technology.
                         antiterrorism training
    Question. Mr. Secretary, I have just joined with Congressman Steve 
Pearce and Senator Bingaman in a letter to you to urge that the 
Department reinstate two anti-terrorism training programs at the New 
Mexico Institute of Mining and Technology in Socorro, New Mexico. At 
the end of last year, the State Department notified New Mexico Tech the 
Hostage Negotiation course was being relocated to Louisiana State 
University, which is a partner with New Mexico Tech in the ATA 
programs. Then this past January, New Mexico Tech was notified by the 
State Department that the Rural Border Patrol Operations program was 
being terminated and moved elsewhere. This is a mistake. The community 
of Socorro and the university have operated very successful ATA 
programs for the State Department. Both have invested significantly in 
facilities to accommodate these programs, and they have been very well 
received by the foreign dignitaries and officials receiving this 
training. The decision to relocate these programs will significantly 
impact the local economy. These programs follow successful New Mexico 
Tech training for the nation's first responders as one of four training 
partners in the Office of Domestic Preparedness and the National 
Consortium on Domestic Preparedness for the Department of Justice. I 
see no valid reason why these programs should be relocated, nor were 
explanations give to New Mexico Tech for this change.
    (A) Mr. Secretary, I understand that the State Department official 
that recently ordered the relocation of the Rural Border Patrol 
Operations course did not have the authority to do so. I am now told 
that this decision has been put on hold, but that the intention is 
still to move forward with this proposal through regular channels. Will 
you please take a look at the attached letter and investigate this 
matter for me? I would urge you to keep the Rural Border Patrol 
Operations Course right where it has been successfully run for the past 
several years--at New Mexico Tech in Socorro, New Mexico.
    (B) Will you please also investigate the decision that was made to 
relocate the Hostage Negotiation course to Louisiana State University? 
While the universities work very closely on these programs, they each 
have unique capabilities which they bring to the anti-terrorism 
assistance programs.

                             Congress of the United States,
                                     Washington, DC, March 3, 2003.
The Honorable Colin L. Powell,
Department of State, 2201 C Street, N.W., Washington, DC 20520.
    Dear Secretary Powell: We write regarding the Antiterrorism 
Assistance (ATA) training program involving Louisiana State University 
(LSU) and New Mexico Tech (NMT). We are deeply concerned about the 
Department of State's (DoS) decision to terminate the Rural Border 
Patrol Operations training program at NMT. Our concerns are further 
heightened by the fact that the Hostage Negotiations program at NMT was 
terminated last year.
    Until the end of 2002, NMT successfully conducted both courses 
under a cooperative agreement between ATA and LSU and a subcontract 
between LSU and NMT. Before year end, LSU (at the direction of ATA) 
notified NMT that Hostage Negotiations training would relocate to LSU 
effective January 2003. At the time, NMT was led to believe that the 
loss of the Hostage Negotiations training program would be offset by 
increased activity in the Rural Border Patrol Operations course, 
thereby resulting in a program neutral change. However, NMT funding for 
both training programs has dwindled from approximately $1.7 million in 
fiscal year 2001 to an estimated $900,000 for fiscal year 2003. 
Obviously, the decision recently announced to relocate the Rural Border 
Patrol Operations course will eliminate any chance for a program 
neutral change and will instead have a significant negative financial 
impact on NMT.
    We are aware of the limited resources available to carry out this 
and other ATA activities during these critical times. Thus, it is 
imperative that our best resources are marshaled to provide important 
training to our allies in foreign countries. We believe the ATA 
training made available to these countries is important to their 
security and critical to our country as the front line of defense to 
antiterrorism activities. It is therefore incomprehensible to us that 
decisions have been made to terminate this important program at NMT, 
especially after NMT's success and contributions to the ATA program 
were formally recognized in the letter from ATA directing the training 
to be relocated.
    The principal reason given by the DoS for its relocation of the 
Rural Border Patrol Operations course was economic. ATA believes they 
can achieve a measure of cost savings by consolidating training at 
another location. It is important to note, however, that more dramatic 
savings can more likely be realized by consolidating additional 
training at NMT. We believe that the decision to terminate training at 
NMT will not represent the greatest cost savings and ignores other 
factors that impact on the economy and the overall quality of life of 
our citizens.
    It is also important for us to point out the considerable 
investment in the ATA training program that has been made by both the 
community of Socorro and NMT. These investments were made as a 
commitment to a long-term, productive relationship with the ATA 
program. First, NMT funded construction of a ``state-of-the-art'' small 
arms range to provide first class support for the program. Second, 
local businesses contributed to the success of the program by investing 
in expansion of their facilities to accommodate students, faculty and 
ATA representatives. Third, NMT provides an exclusive training area, 
which consists of 3,137 acres, for the Rural Border Patrol Operations 
training program at no cost to the ATA program.
    In light of the above, we affirm our desire to continue the 
successful ATA programs already established by NMT in Socorro, NM, and 
for the DoS to fully use the existing infrastructure and prior 
investments made to support these important programs. To re-establish 
this program at DOE training facilities in Albuquerque may require 
substantial investment of scarce funds and may require entry to a 
military installation where, due to heightened security restrictions, 
guaranteed access by foreign nationals could be limited, as was ATA 
student access to facilities on some military installations immediately 
following September 11th.
    The Department of State should take immediate action to accomplish 
the following actions:
  --Reverse the decision to relocate the Rural Border Patrol Operations 
        training away from NMT.
  --Reestablish Hostage Negotiation (or a comparable training course) 
        at NMT.
  --Use the unique facilities of NMT to support a Large Scale Terrorist 
        Bombing course or similar training program.
  --Relocate the office of the ATA New Mexico representative from 
        Albuquerque to Socorro, NM.
    These actions would help realize actual cost savings in the ATA 
program and permit full utilization of existing (and proven) high 
quality training facilities at NMT, thus eliminating costs associated 
with duplicating such facilities at new training locations.
    We greatly appreciate your attention to this time sensitive request 
and look forward to your swift response. Should you have any questions, 
please feel free to contact Ricardo Bernal of Rep. Steve Pearce's staff 
at (202) 225-2365.
            Sincerely,
                                             Stevan Pearce,
                                                Member of Congress.
                                             Pete Domenici,
                                             United States Senator.
                                             Jeff Bingaman,
                                             United States Senator.

    Answer. The Department has not made a final decision to relocate 
the Rural Border Patrol Operations course from New Mexico Tech. The 
Hostage Negotiations course was moved to Louisiana State University so 
that it could be co-located with the Advanced Crisis Response Team 
(SWAT) course that is taught there, where specialized facilities are 
available. Both courses end in a capstone joint exercise involving 
hostage negotiation and hostage rescue.
    New Mexico Tech has a sub-grant of a cooperative agreement between 
Louisiana State University and the Bureau of Diplomatic Security that 
is renewable each year. Diplomatic Security regularly reviews these 
agreements and compares costs for providing courses among various 
service providers. Recently, as a matter of fact, a course that was 
once taught in Washington state was relocated to a New Mexico facility.
    We would be happy to provide you or your staff with a detailed 
briefing on the consideration of this matter prior to any final 
decision.
    Question. Would you please tell the Subcommittee the Department's 
plans to fund the International Law Enforcement Academies in fiscal 
year 2003 under the omnibus appropriations bill?
    Are there sufficient funds to adequately support the operation of 
the ILEAs for the remainder of the fiscal year? If not, what 
adjustments does the Department plan to make in ILEA operating plans?
    Answer. The Department plans to continue to support the work of the 
established ILEAs in Bangkok, Budapest, Gaborone and Roswell. The level 
of funding will be approximately $3.5 million each for Bangkok, 
Budapest and Gaborone and $5 million for Roswell. In addition, $2 
million will provide initial funding for the development of the newest 
ILEA for Latin America. Existing funds can adequately support the 
current level of operations at all the ILEAs. No adjustments are 
necessary.
    Question. The conferees endorsed Senate and House report language 
regarding ILEA, and stated the expectation that the Administration 
provide sufficient funding to complete the Roswell Center where there 
is a building currently under construction. Can you please tell me what 
the status of that project is, and when it is expected to be completed?
    Answer. The Department has $3.5 million available for the 
construction of a new building at the Roswell facility. The New Mexico 
Institute of Mining and Technology has been instructed to present a 
proposal including detailed information and specifications, as required 
by statute for any building project, for review and approval. This type 
of building project typically takes 12 to 18 months to complete.
    Question. Under the President's fiscal year 2004 budget requests 
for International Law Enforcement and Narcotics Control, what are the 
Department's plans to fund each of the ILEA programs? Would you please 
provide the Subcommittee with the details on the proposed ILEA training 
for the upcoming fiscal year?
    Answer. The level of funding will be approximately $2.9 million 
each for Bangkok, $3.2 million for Budapest, $2.7 million for Gaborone, 
$5 million for Roswell and $3.3 million for San Jose. This funding will 
allow for continuing operations--at a reduced training tempo in the 
regional academies--based on fiscal year 2003 spending levels. No new 
initiatives are possible without additional funding.
                                 ______
                                 
         Questions Submitted by Senator Ben Nighthorse Campbell
    Question. Last October, I wrote to the Department, along with 
several colleagues from the Helsinki Commission, concerning Ukrainian 
President Kuchma's approval of the transfer to Iraq of the Kolchuga 
[COL-chew-ga] radar system.
    Have efforts been made to investigate possible financial benefit on 
the part of President Kuchma or his associates in connection with the 
Kolchuga affair?
    Has the Ukrainian government given indications of cooperating in 
resolving the problem of transfers of military equipment to rogue 
states such as Iraq?
    Answer. Although we remain convinced that President Kuchma 
authorized the transfer of Kolchuga to Iraq, we do not know if the 
transfer actually occurred. We are not aware of any violations of U.S. 
law in connection with payments President Kuchma or any other Ukrainian 
official might have received in connection with any transfer of the 
Kolchuga system to Iraq.
    The Kolchuga incident exposed serious weaknesses in Ukraine's arms 
export control system. The United States is working jointly with 
several other governments in a cooperative effort to strengthen 
Ukraine's export control system, enforcement, and oversight of defense 
industries and transshippers. We continue to engage the Government of 
Ukraine on these issues and are intensifying our diplomacy. As a result 
of our diplomatic efforts and pressure, the Ukrainian government has 
undertaken a number of preliminary structural reforms in the arms 
export industry that enhance nonproliferation. The Ukrainian parliament 
(Rada) also recently passed a new export control law that could 
contribute to stronger safeguards. We will be working with the 
Government of Ukraine to support effective implementation of its export 
control law and regulations in addition to pushing for continued 
structural reform.
    Question. We have seen disturbing reports that Belarus, Bulgaria, 
Bosnian Serbs and Serbia have also been actively involved with arms 
trade to Iraq. I am particularly disturbed over Belarus under 
Lukashenka--the last dictator in Europe and will soon introduce the 
Belarus Democracy Act in the Senate.
    How serious do you regard the problem of arms transfers to Iraq 
from other OSCE countries of the Former Soviet Union and Eastern 
Europe?
    While I understand some progress has been made in shutting off a 
notorious Serbian connection, are we making satisfactory progress with 
these other suppliers?
    Is the United States pursuing the issue of arms transfers within 
the OSCE framework?
    Answer. U.S. strategy to halt military assistance and gray arms 
transfers from Eastern and Central Europe and Eurasia to Saddam 
Hussein's Iraq and other state sponsors of terrorism has been a quiet, 
but significant, success for U.S. national security. Since July 2001, 
the United States has invested substantial diplomatic and intelligence 
resources in implementing nonproliferation strategies for states in 
this region, including for each of the NATO invitees. Relying on the 
tools of coordinated diplomacy, information sharing, interdiction, and 
coordinated assistance, our efforts to strengthen border security and 
encourage responsible export control policies in Eastern and Central 
Europe and Eurasia have worked remarkably well.
    Our cooperation with Serbia and Montenegro and Bulgaria in 
particular mirrors the very successful nonproliferation strategies 
pursued in Eastern Europe and the Balkans. The fruitful partnerships 
that developed as a result of this strategy proved invaluable to our 
efforts in Operation Iraqi Freedom and continue to play a significant 
role in the global war on terrorism.
    We are beginning to implement a synthesized approach to border 
security and nonproliferation cooperation in the Balkans, with support 
from many in Congress. The Department also continues to execute an 
effective small arms and light weapons destruction program. This 
program has destroyed 230,000 surplus weapons and several tons of 
ammunition in Albania, Bulgaria, and Serbia and Montenegro, and will 
destroy similar amounts in Bulgaria and Romania this year. Our 
diplomatic efforts have also resulted in virtually all Eastern and 
Central European governments vetting proposed arms sales and transfers 
with the USG. The United States has sought to use the OSCE to reinforce 
our work on conventional arms transfers in order fora, and to cement 
principles and good practices associated with arms transfers among the 
members of OSCE states. This effort dates back to agreement in 1993 on 
Principles Governing Conventional Arms Transfers, but became more 
focused at the 1999 Istanbul OSCE Summit with the OSCE Document on 
Small Arms and Light Weapons. The specific measures contained in the 
Document on Small Arms and Light Weapons go beyond the earlier 
statement of general principles--firmly based on U.S. principles and 
practices--and provide a concrete basis for U.S. efforts to encourage 
institute good practices among our OSCE partners in this regard.
    We are at an important point in implementing this strategy. We have 
begun to steer Eastern Europe away from the arms markets and military 
cooperation of the past toward productive areas for the future. These 
positive changes will contribute not only to our efforts to cut off 
supply lines to terrorists, but also to our goal of supporting further 
integration into western security and defense institutions. We will 
continue to work within the effective framework of bilateral and 
multilateral relationships, including the Wassenaar Arrangement, NATO, 
and the G-8, to ensure the sustained improvement in arms transfer 
policies in all OSCE countries.
    Question. Mr. Secretary, despite our frustration and disappointment 
with President Kuchma and his associates in Ukraine, it is important 
that we continue to assist those elements of Ukrainian society striving 
for democracy, rule of law and Euro-Atlantic integration.
    Cuts in Voice of America and Radio Liberty programming to Ukraine 
have been proposed. Isn't this a premature move, given the poor 
environment for independent media there especially in the run-up to 
next year's presidential elections?
    Answer. We share your views on the critical importance of 
developing a strong civil society in Ukraine, and on the important 
contributions made by Voice of America and especially Radio Free 
Europe/Radio Liberty (RFE/RL). In the interest of seeing a free and 
fair 2004 presidential election in Ukraine, in which all major 
candidates have access to the media, the role of the Ukrainian service 
of RFE/RL is especially vital. This is a central goal of U.S. policy 
towards Ukraine.
    In March, Under Secretary Beers sent a letter to the Chairman of 
the Board of Broadcast Governors (BBG) expressing our concerns about 
rumored reductions in staffing and operational funding for RFE/RL's 
Ukrainian language service. We also briefed the BBG on the results of 
our Ukraine policy review, which called for greater support for 
independent media in Ukraine. The Chairman, Mr. Tomlinson, assured us 
that no reductions for RFE/RL were contemplated.
    Question. As Co-Chairman of the Helsinki Commission, I recently 
introduced a bipartisan resolution (S. Con. Res. 7) concerning anti-
Semitism and related violence in the OSCE region.
    What actions is the Department taking to ensure that our friends 
are doing everything possible to confront such attacks, prosecute and 
publicly denounce such violence?
    The Porto OSCE ministerial called for a meeting focused 
specifically on anti-Semitism, a subject high on the Helsinki 
Commission agenda. Is that meeting on track to take place?
    Answer. The Department of State is concerned about the increase in 
anti-Semitic violence in the OSCE region. We have made combating anti-
Semitism a priority for our diplomacy throughout the region and 
especially at the OSCE.
    The OSCE Parliamentary Assembly led the way on this issue by 
issuing a statement at the Berlin summer session last July highlighting 
the need for vigilance and governmental attention to the problem of 
anti-Semitic activities.
    Our success at the Ministerial meeting in Porto in scheduling an 
OSCE meeting on anti-Semitism is in large part a result of the work 
done on this issue by the Parliamentary Assembly.
    Through the OSCE Permanent Council and on a bilateral basis we 
raise incidents of anti-Semitic violence or policies with the 
governments concerned.
    The OSCE meeting on anti-Semitism scheduled for June 2003, will be 
a forum to discuss best practices in the fight against anti-Semitic 
violence and tendencies in societies. The U.S. delegation, to include 
prominent governmental officials and private individuals, will be 
robust and will reflect the importance we place on this conference.
    Question. Mr. Secretary there have been reports in the media 
suggesting that the United States is allowing, if not encouraging, 
other countries to torture individuals suspected of involvement in 
terrorism. In his State of the Union Address, the President described 
the horrific forms of torture employed by the Hussein regime and 
concluded, ``if this is not evil, then evil has no meaning.'' Can you 
clarify what the U.S. policy is with respect to torture in the war 
against terrorism?
    Answer. The United States condemns and prohibits torture. The 
President recently reaffirmed this to the United Nations High 
Commissioner for Human Rights. The Department of Defense General 
Counsel has further advised in a letter on the subject addressed to 
Human Rights Watch that:
  --(1) When questioning enemy combatants, U.S. personnel are required 
        to follow this policy and applicable U.S. laws prohibiting 
        torture.
  --(2) With respect to the transfer of detained enemy combatants to 
        other countries for continued detention, U.S. Government 
        instructions are to seek and obtain appropriate assurances that 
        such enemy combatants are not tortured.
  --(3) U.S. Government personnel are instructed to report allegations 
        of mistreatment of or injuries to detained enemy combatants, 
        and to investigate any such reports.
  --(4) U.S. Government officials investigate any known reports of 
        mistreatment or injuries to detainees.
    The United States does not condone torture and is committed to 
protecting human rights as well as protecting the people of the United 
States and other countries against terrorism of global reach.
    Question. A year ago I asked you what action might be taken against 
OSCE countries like Turkmenistan who flagrantly violate their human 
rights commitments. I understand that the situation has only 
deteriorated further over the past year. What is the Department doing 
to address these developments?
    Answer. The human rights situation has continued to deteriorate in 
Turkmenistan, particularly since the November 2002 attack against 
President Niyazov's motorcade. The United States is deeply concerned 
about the human rights situation in Turkmenistan, and we have embarked 
on a number of bilateral and multilateral initiatives to address the 
problems there.
    We have raised our human rights concerns directly with President 
Niyazov and other senior officials in Turkmenistan on a number of 
occasions, as well as the Turkmen Ambassador in Washington. In those 
conversations, we especially discussed the conduct of the Turkmenistan 
Government during its investigation of the November incident. We have 
also encouraged other countries to raise the matter with the Government 
of Turkmenistan.
    We have also vigorously pursued multilateral efforts to improve 
Turkmenistan's human rights record. In December 2002, the United States 
joined other OSCE member states to invoke the rarely used ``Moscow 
Mechanism,'' requiring the Government of Turkmenistan to reply in 
writing to a request for information on the whereabouts and conditions 
of those arrested. Ashgabat failed to respond adequately, thereby 
bringing into motion the second stage of the Moscow Mechanism--the 
sending of a fact-finding team to Ashgabat to report on the situation. 
Under its OSCE commitments, the Government of Turkmenistan is obliged 
to accept a visit by the team and must appoint one member to the team. 
Despite this obligation, the Government of Turkmenistan did not 
cooperate, and the OSCE team had to investigate the matter without 
assistance.
    On March 13, 2003, the OSCE Moscow Mechanism Rapporteur submitted 
his report on abuses in Turkmenistan following the November attack on 
President Niyazov. The report condemned the attack itself, catalogued a 
range of grave human rights abuses following the attack, and publicly 
called on Turkmenistan to make reforms and work with the OSCE to 
address the problems. Turkmenistan has rejected the findings of the 
report.
    The United States also co-sponsored an April 2003 United Nations 
Human Rights Commission resolution condemning Turkmenistan for a range 
of human rights abuses including torture and political and religious 
repression. In particular, the resolution cited abuses in the crackdown 
following the November incident. We hope this resolution will encourage 
reforms in Turkmenistan and enhance U.N. engagement on this issue.
    The United States is committed to sustained diplomatic engagement 
with Turkmenistan to press for fundamental political, economic, and 
societal reforms, and to push Turkmenistan to develop a healthy respect 
for human rights in accord with its U.N. and OSCE obligations. The 
development of such reforms is inextricably tied to security, 
stability, and prosperity in Turkmenistan. Understanding that 
significant political change will take time, we have increased our 
assistance programs that promote democratic freedoms, including human 
rights, civil society and rule of law.
                                 ______
                                 
           Questions Submitted by Senator Ernest F. Hollings
                        cost sharing initiative
    Question. Is the program voluntary or mandatory?
    Answer. The Administration's Security Capital Cost Sharing Program 
will be mandatory for all agencies under Chief of Mission authority. As 
envisioned, agencies, including the Department of State and ICASS, will 
be required to pay on a per capita basis for each authorized overseas 
position. It is an Administration initiative that is part of the 
President's Management agenda. It aligns costs with the overseas 
assignment process and is a significant right-sizing initiative. It is 
also consistent with the OPAP recommendations. This approach is 
reflected in the Foreign Affairs Authorization Bills now being 
considered by both the Senate and House.
    Question. How are you going to guarantee that other agencies will 
reimburse the Department through the Cost Sharing Program?
    Answer. The legislation now being considered (S. 925 and H.R. 1950) 
would authorize State to collect the amounts due automatically through 
the Intra-Governmental Payment and Collection System, which is the same 
way GSA collects rent for domestic buildings. Payment and collection 
would not be contingent on a particular cost sharing appropriation to 
an agency.
    Question. What specifically is the $120 million for?
    Answer. All cost sharing funds will be used solely for the 
construction of secure, safe, and functional New Embassy Compounds 
(NEC), in accordance with the Long-Range Overseas Buildings Plan. The 
fiscal year 2004 funds will help fund the NEC's identified in the 
President's fiscal year 2004 Budget. The $120 million includes State's 
cost share of $64 million and $56 million for other agencies' cost 
share. The actual transfer of funds from agencies will begin in fiscal 
year 2005 and will be fully phased in by fiscal year 2009.
    Question. You propose to phase the program in over 5 years. Does 
this mean that DOS shoulders the expense for the next 5 years?
    Answer. Under this program, State will not have to shoulder all the 
expense for the next 5 years. State has traditionally provided 100 
percent of the capital cost of New Embassy Compounds (NEC), and even 
when the Cost Sharing Program is fully phased in, the Department will 
be responsible for about two-thirds of the total budget based on its 
overseas positions. The 5-year phase-in period will allow other 
agencies time to rationalize their overseas presence, deciding either 
to increase their budgets for overseas activities or reduce the numbers 
of their least essential personnel overseas. The Department of State 
would also be making the same judgments about its own staffing in light 
of the larger financial consequences of maintaining positions overseas. 
The Administration believes that the 5-year phase-in is a practical 
accommodation to account for a significant change in the Government's 
approach to funding the construction of approximately 150 New Embassy 
Compounds over the next 12 to 14 years.
    Question. Would you provide the Committee with a breakout of DOS 
costs and costs of participating agencies for each of the next 5 years?
    Answer. The breakout of Department of State costs and costs of 
participating agencies currently available are based on data collected 
almost two years ago. The Department has recently collected fresh data 
and is now computing new cost figures. As soon as they are available, 
we will make them available to the committee. We anticipate they will 
be ready in late June.
                            usaid facilities
    Question. Why did State decide to request additional funding for 
USAID facilities through CJS, when Congress has consistently not 
supported this approach?
    Answer. The Department of State and the Administration are strongly 
committed to ensuring that USAID is also provided with secure, safe, 
and functional facilities. The Secure Embassy Construction and 
Counterterrorism Act of 1999 requires all agencies, and therefore USAID 
as well, to be located on the embassy compound. This also allows for 
economies of scale resulting from concurrent construction. We are eager 
to work with the Congress to achieve this legislated mandate.
    Previous budget submissions have requested full funding from the 
Commerce, Justice, State, and Judiciary Subcommittees and from the 
Foreign Operations Subcommittees in different years, and neither 
subcommittee has been willing to fund USAID buildings. The fiscal year 
2004 budget request places the ``catch up'' projects that should have 
accompanied the already funded New Embassy Compounds (NECs) in the 
Foreign Operations budget request. USAID facilities that will accompany 
the proposed NECs are included in the CJS budget request.
    The Administration's proposed Security Capital Cost Sharing Program 
should render the USAID facilities funding issue moot since USAID, like 
other agencies, will pay into the program for the space they need.
                      berlin/frankfurt facilities
    Question. What steps are you taking to ensure that the facility 
will remain safe in light of the fact that you will not know who owns 
property inches away from the embassy wall?
    Answer. The new embassy in Berlin will be built to withstand 
catastrophic and progressive collapse from blast, and is being designed 
with buffer spaces between the building and the contiguous buildings. 
Additionally, our design features non-office space such as elevator 
shafts and mechanical rooms located along the space contiguous with 
adjacent buildings, to the maximum extent feasible.
    Question. Will you know who purchases the condominiums next door?
    Answer. Our security and intelligence units keep in close contact 
with German security and intelligence services, as well as building 
owners and landlords. It is in all of our interests to provide safety 
and security for not only our facility, but for the Germans and German 
facilities close to ours. The German authorities and the owners of the 
adjacent buildings appreciate our concerns and we foresee a very high 
level of cooperation to address this issue.
    Question. If you are capable of building a structure within inches 
of private property without any knowledge of who owns that property, 
then do we truly need the 100-foot setback requirement?
    Answer. The location of our new Embassy in Berlin is a unique 
opportunity to build a chancery on a historic and prestigious site. It 
is not without security challenges, but both the Department and German 
authorities are working to provide an adequate level of security. While 
the site does have contiguous buildings, we are working to mitigate the 
threat from the buildings using both physical and procedural methods. 
It should also be noted that we are working with the Germans to ensure 
that uninspected vehicles on the roads around the chancery are kept at 
a distance of no less than 82 feet. The chancery will be built 
stronger, to the same level of protection as if it had 100 feet of 
setback.
    While certain waivers will be signed for this particular chancery 
building, the normal requirement for 100 feet of setback has allowed 
the Department to construct safe and secure facilities in many 
countries in the world that may not provide the same level of 
cooperation or have the same capabilities as the German government. 
Congress wisely included a waiver process in the Secure Embassy 
Construction and Counterterrorism Act, and that process will be used 
only when appropriate. The 100-foot requirement is still valid.
    Question. What steps are you taking to secure the property where 
the subway runs?
    Answer. The subway does not run under the building. It does run 
under the Pariser Platz in front of the chancery. There is an emergency 
escape tunnel from the subway with an exit in the street approximately 
60 feet in front of the embassy, which would open into an area where 
the public has free pedestrian circulation. We do not consider the 
subway a vulnerability.
    Question. Given the current climate and anti-American sentiment in 
Germany because of the potential war with Iraq, do you still feel as 
certain about maintaining the security of the facility today as you did 
one year ago?
    Answer. While there were differences in our positions over Iraq, 
the Germans provided excellent security for our existing facilities 
throughout this period of heightened threat. I have no doubt that they 
will continue to honor their security responsibilities and provide us 
with excellent services and support. The decision to build on Pariser 
Platz was taken only after careful consideration, with the condition 
that security issues be adequately addressed. We continue to move 
toward that goal.
    Question. When will you actually sign the waiver for the security 
requirements?
    Answer. The waiver will be signed when the Department is assured 
that security issues have been adequately addressed.
                    evaluating the hiring initiative
    Question. Since the whole notion of the 1,158-position Hiring 
Initiative was to meet DOS's high priority needs, why are the 68 
additional positions needed for Consular Activities not absorbed in the 
Hiring Initiative?
    Answer. The Diplomatic Readiness Initiative (DRI) request was 
introduced as a three-year plan by Secretary of State Powell in 2001 to 
fill gaps created by underhiring in relation to workload in the 1990's. 
The DRI addresses many of our core needs, some of which are determined 
by our Overseas Staffing Model and training requirements. However, some 
personnel requirements are assessed and resources requested separately 
such as security, IT, and consular which tend to have specific needs 
due to outside events.
    It did not take into account the additional requirements that would 
follow from the events of September 11th. Currently, the Department is 
assessing future personnel needs taking into account the long-term 
needs of the Department, to include the implications following the 
events of September 11th.
    The 68 CA positions that are referenced in the question represent 
new positions not originally contemplated in the DRI. These positions 
will be used to replace temporary consular associates with full-time 
consular officers. This is a critical element in the Department's' 
efforts to support homeland security initiatives.
    Additionally, Consular positions have traditionally been funded 
through the MRV fees collected by the Department. Post September 11, 
travel has decreased and therefore so has MRV income. This means that 
we need to request appropriated funds for these additional personnel 
requirements.
    Question. Does the Department support, as you stated in the letter 
of May 22, 2002, a comprehensive plan for compensation?
    Answer. Yes. We have stated on many occasions that we favor a 
comprehensive approach to compensation for U.S. victims of 
international terrorism. We sympathize greatly with suffering endured 
by U.S. victims of terrorism and their families, including the 1979 
Tehran hostages. We support a comprehensive program that allows them to 
receive quick payments in their time of need.
    The current ad hoc, piecemeal legislative approach, however, which 
depends on the vagaries of litigation, does not work. It is not fair 
and equitable, as it has provided some victims or categories of victims 
with compensation and has left others with nothing.
    Deputy Secretary Armitage's letter to Congress, dated June 12, 
2002, laid out the Administration's principles for a comprehensive 
plan. The letter stated that such a plan should provide compensation on 
par with that for death or injury to public safety officers killed in 
the line of duty in a quick, streamlined and simple claims process, 
without regard to income. It stated further that such a comprehensive 
plan should preserve the President's ability to conduct foreign policy 
by not using blocked assets to fund victims compensation.
    Question. Since you have drafted something, perhaps you would like 
to share with the committee exactly what you propose to do to 
compensate the original 52 hostages?
    Answer. First, some background on this issue is helpful. This is 
not the first time that Congress or the President has considered the 
question of compensation for the 1979 hostages. In 1980, Congress 
passed the Hostage Relief Act, which provided compensation with respect 
to the hostages' tax liabilities and other benefits in 1980. After the 
Algiers Accords were entered into in 1981, which waived the hostages' 
claims in order to secure their release from captivity, and after 
extensive hearings were held in both houses of Congress on the Accords 
as a whole and on this waiver in particular, the President established 
a special commission to make recommendations to the Congress as to how 
the hostages should be compensated for their ordeal.
    The President's Commission issued its Final Report and 
Recommendations on Hostage Compensation in 1981. It recommended that 
the hostages receive a certain amount of compensation and other 
benefits. In 1986, the Victims of Terrorism Compensation Act was passed 
and enacted into law. Section 802 and 803 of that act provided for 
additional compensation and benefits to the hostages. I understand that 
all of the hostages received compensation according to the directives 
of that act.
    Deputy Secretary Armitage's letter to Congress of June 12, 2002, 
outlined the Administration's principles for a comprehensive 
compensation plan. Because the plan is designed to address compensation 
for all U.S. victims of international terrorism, it does not single out 
any particular group or category, such as the 1979 hostages.
    Question. When can we expect to see such a proposal?
    When was the proposal submitted to OMB? What steps are you taking 
to the proposal released from OMB?
    Answer. The submission of a proposal and its timing depend on OMB. 
We have been working with OMB for some time to develop such a proposal. 
In November 2001, we sent a draft proposal to OMB that could be 
circulated for inter-agency review. Our discussions with OMB ultimately 
resulted in the letter that Deputy Secretary Armitage sent to Congress 
last June. Following my oral testimony in March, I sent a letter to 
then-OMB Director, Mitch Daniels, urging that OMB complete its review 
of our draft proposal as soon as possible. We have been in further 
discussions about this with OMB and the White House. We have made 
progress, and I am hopeful that these discussions will result in a 
proposal that is worked out between the Administration and Congress 
soon.
    Question. To date, how much funding has the Department of State 
expended on defending Iran--a known terrorist state--in court against 
American citizens?
    Answer. None. We have made appearances in proceedings in U.S. court 
to protect the interests of the United States. Unfortunately, 
plaintiffs' lawyers have sometimes mischaracterized our actions. In the 
Roeder v. Iran case in the U.S. District Court for the District of 
Columbia, Judge Sullivan noted in his decision,

    ``Plaintiffs consistently mischaracterize the nature of the 
interest asserted by the United States. The United States is not 
seeking to vindicate Iran's interests, but rather its own commitment 
under a binding international agreement, and its ever-present interest 
in the enforcement of its laws.''

    Judge Sullivan recognized that we had appeared in the litigation to 
protect U.S. interests in light of our obligations in the Algiers 
Accords.
    I would also like to address certain statements made by Senator 
Harkin concerning the Algiers Accords in recent congressional hearings. 
He suggested that the Algiers Accords should not have any binding 
effect, asserting that they were never a treaty ratified by the Senate 
and because they resulted from blackmail.
    After the Algiers Accords were signed, and after the hostages were 
released, Congress had extensive hearings on the Accords in both 
houses. Former Deputy Secretary Warren Christopher, who was the lead 
negotiator for the United States, recounted in his testimony how he had 
reported to the then-Senate Foreign Relations Committee ``on nearly a 
daily basis'' concerning the ongoing negotiations. As reflected in the 
hearings, the Accords and the negotiators received overwhelming 
bipartisan support and praise. For example, the Chairman of the House 
Foreign Affairs Committee, Rep. Zablocki, stated, ``The agreements 
preserved the honor of the United States and secured the safe release 
of the hostages.'' The Chairman of the Senate Foreign Relations 
Committee, Senator Percy, also stated, ``President Reagan has 
determined that Presidential authority did exist and does exist to 
implement these agreements and it is in the best interests of the 
United States of America that we honor them. I applaud this decision by 
President Reagan and Secretary Haig.'' And the Supreme Court noted 
Congress' approval of the Algiers Accords in its decision in Dames & 
Moore.
    Upholding U.S. obligations in the Algiers Accords is in the 
interests of the United States, and it is those interests that the 
United States has sought to protect by appearing in court in these 
cases.
    Question. What other terrorist states or organizations has the 
Department of State defended in court?
    How much has been expended on those cases?
    Answer. None.
                           dolphin-safe tuna
    Question. With all due respect, doesn't NMFS have greater 
scientific expertise than the Department of State to make this decision 
as to whether the science supports changing the standard?
    Answer. Yes. The Department of Commerce in general, and the 
National Marine Fisheries Service in particular, has both the capacity 
and the statutory responsibility to evaluate the scientific evidence 
bearing on the issue of dolphin-safe tuna fishing. We understand that 
the decision was made on this basis.
    Question. Despite the clear science-based standard in the statute, 
isn't it true that the Department of State believes that keeping Mexico 
and other countries at the table in the international treaty on the 
tuna fishery in the Eastern Tropical Pacific is an important factor in 
deciding whether to change the U.S. law? Wasn't this view expressed to 
the Department of Commerce?
    Answer. At the end of 2002, the Secretary of Commerce had the 
responsibility under the law in question to determine whether the purse 
seine tuna fishery in the Eastern Pacific Ocean is having a significant 
adverse impact on any of the depleted dolphin stocks in that region. As 
you know, he found that the fishery is not having such an impact.
    In advance of that finding, I wrote to Secretary Evans to describe 
what the Department of State saw as a wide range of views of various 
scientific organizations that were examining this issue and urged him 
to weigh all the competing evidence carefully, as he certainly did.
    The United States has a strong interest in maintaining the 
International Dolphin Conservation Program, which has reduced dolphin 
mortality in this fishery by 98 percent. However, the statutory 
criteria on which the Secretary of Commerce made his finding relate 
solely to the issue of whether the fishery is having a significant 
adverse impact on dolphin stocks. The Department of State has not 
argued otherwise.
    Question. There have been serious concerns raised with respect to 
the failure of certain member countries to comply with the 
international agreement to reduce dolphin mortalities in the Eastern 
Tropical Pacific. As a result of these concerns, the fiscal year 2003 
Omnibus Appropriations bill includes language calling for a report to 
Congress on compliance with the international agreement, and also 
provides $750,000 of the budget for the Bureau of Oceans and 
International Environmental and Scientific Affairs only for negotiating 
measures to strengthen the IDCP. I hope you are taking our message 
seriously.
    Answer. The Department of State is aware of the concerns that some 
have raised with respect to the implementation of the international 
dolphin conservation program. Since the initial implementation of the 
program, we have stressed to all participants the need for the highest 
standards of compliance with the provisions of the agreement and have 
worked to achieve this result in a number of ways. However, more can 
and should be done. We will continue to work with the Department of 
Commerce, Congress and affected U.S. constituent groups to pursue 
effective implementation of this program.
                                 ______
                                 
           Questions Submitted by Senator Barbara A. Mikulski
    Question. Mr. Secretary, thank you for pursuing the Diplomatic 
Readiness Initiative to fill staffing gaps in the Foreign Service and 
Civil Service. Fiscal year 2004 will be the third and final year of the 
Diplomatic Readiness Initiative.
    The State Department authorization act (Public Law 107-228, at Sec. 
301) requires that you submit to the Congress a comprehensive workforce 
plan for the Department for fiscal years 2003 through 2007. We look 
forward to receiving this workforce plan, which is due 180 days after 
enactment of the Act. The world has changed considerably since the 
Diplomatic Readiness Initiative targets were set two years ago, and we 
expect changes in the State Department to be reflected in the workforce 
plan.
    Are Diplomatic Readiness Initiative targets still adequate to fill 
the current and anticipated open positions at our diplomatic missions 
and consular posts?
    Will there be a sufficient number of Foreign Service personnel so 
they can receive needed training without leaving positions unfilled?
    Do you anticipate personnel shortfalls or unmet skills needs, which 
would be identified in the workforce plan? Do you anticipate the need 
to shift personnel, or problems in recruitment and retention, that the 
subcommittee should be prepared to consider?
    Answer. As mentioned, the Diplomatic Readiness Initiative (DRI) 
program was intended to ``right-size'' the State Department staff 
following a long period of under hiring in the mid-1990's. Events since 
the initial DRI (developed in 2001) could support increases. We 
anticipate that the next iteration of the Overseas Staffing Model will 
take some of these events into consideration and we will also be 
reviewing results of our analysis of the Domestic Staffing Model 
results.
    DRI was designed to help make it possible to plan for crises and to 
have enough people to be able to reprioritize quickly within existing 
resources; without enough people in the system, those who leave to 
cover a crisis would leave major staffing gaps.
    But for some of these new issues, they cease being crisis 
requirements and become baseline requirements--such as an embassy in 
Kabul and the increased consular workload.
    We have had to use some of the DRI positions to cover new consular 
needs in the wake of 9/11 when the workload went up even as MRV fees--
which have funded many consular position increases--went down. We have 
also had increased visa processing requirements that have increased 
workload while we have also striven to ensure that we have fully 
trained commissioned Foreign Service Officers in all positions. In the 
short run we have had to meet these new requirements within our current 
workforce. These requirements will need to be met continuously, but the 
original DRI did not envision these changes.
    Even though we had to use some DRI positions for these unexpected 
contingencies, we still need the personnel complement foreseen by DRI 
to make training and future crisis response possible.
    Question. A June 2002 General Accounting Office report on 
Diplomatic Readiness at Hardship Posts, stated, ``According to State 
officials and Foreign Service employees, the incentive provided by 
differential (hardship) pay for overseas service has been diminished by 
rules governing locality pay . . .. State has not analyzed the effect 
that this difference has had since 1994 on the number of Foreign 
Service employees who bid on overseas assignments, including hardship 
posts. However, State Department officials, the American Foreign 
Service Association, and many officers with whom we met said that this 
gap penalizes overseas employees and that if it continues to grow, it 
will inevitably keep employees from choosing an overseas career in the 
Foreign Service . . .. We estimate that by 2006 and 2010, the 
differential pay incentives from the 15 percent and 20 percent 
differential posts, respectively, will be less than the locality pay 
for Washington, D.C., assuming that the locality pay rate continues to 
increase at about 1 percent per year.''
    Do you believe the gap identified as a problem by GAO will result 
in difficulty filling positions at hardship posts? If so, how can this 
problem be addressed?
    Answer. While our employees always step up to do what is needed, we 
do believe that the overseas pay gap (now nearly 13 percent as 
Washington, DC locality pay rose in 2003) has created serious morale 
problems, causing employees to question our commitment to them as we 
ask them to do ever more difficult and dangerous work overseas.
    The hardship incentive--post ``differential''--is intended to both 
compensate employees for difficult conditions as well as to provide an 
incentive for service. It is not intended to make up for lost salary. 
Hardship incentives to do not count as salary for the purposes of 
annuity calculations or retirement fund contributions.
    We believe that this inequity between overseas and domestic 
salaries will make it harder for us to staff overseas posts--especially 
hardship posts, but all posts. At nearly a quarter of our posts, even 
including allowances such as hardship pay, salary is less than 
Washington salaries.
    Unlike the CIA, we do not currently have the legal authority to pay 
employees overseas at the Washington, DC pay level. In addition, the 
cost of doing so cannot be managed without additional appropriations. 
We are working with the Administration on a solution to this inequity 
and workforce management problem.
    Question. At the time of the bombings of our embassies in east 
Africa, about 88 percent of our embassies did not meet the Department's 
basic safety standards (according to the Overseas Presence Advisory 
Panel report).
    After five years of a ten or eleven year plan to protect our posts 
and missions abroad, what percentage now meets the Department's basis 
safety standards?
    Also, because of the changing nature of international terrorism, do 
you believe additional funds are necessary to protect U.S. personnel 
and their families in ``soft target'' environments such as 
international schools attended by our children, churches and places of 
entertainment frequented by American families, and even our housing 
complexes?
    Answer. In the immediate period after the embassy bombings, 
Congressional funding and Department effort was focused on providing 
immediate improvements to our existing facilities using the Emergency 
Security Appropriation. These efforts provided necessary and timely 
upgrades to our facilities, and were instrumental in protecting our 
people in such places as Karachi from a car bomb attack. However, this 
effort could not provide substantial improvements such as blast 
resistant buildings and improvements in setback for most of our 
buildings.
    Since early 2001, the Department has embarked on a truly ambitious 
new building program. Since then, new embassy facilities have been 
constructed in Kampala, Doha, Dar Es Salaam, Tunis, and Abu Dhabi. 
Three new embassies will be finished in 2003, including Zagreb, 
Nairobi, and Istanbul. The 88 percent figure relates to 142 of the 163 
``Inman'' era embassies that were not up to standard, leaving 21 (12 
percent) that were up to standard. Adding these 8 new embassies, the 
percentage rises to nearly 18 percent. With 2004 plans for another 8 
embassies, this figure will continue to improve.
    As to the question of soft targets, I believe funding can and is 
being provided to improve the security at overseas schools and for our 
housing. However, the school program is just commencing, and it is 
unclear how much funding will be appropriate. The Department will also 
continue to provide timely and appropriate security advice and guidance 
to businesses and religious groups overseas to enhance their ability to 
protect themselves.

                          subcommittee recess

    Senator Gregg. The subcommittee will stand in recess.
    [Whereupon, at 11:04 a.m., Thursday, March 6, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
